<html>
<title> - REVIEW OF THE INDUSTRY RESPONSE TO THE SAFETY OF FRESH AND FRESH-CUT PRODUCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 REVIEW OF THE INDUSTRY RESPONSE TO THE SAFETY OF FRESH AND FRESH-CUT 
                                PRODUCE

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON HORTICULTURE AND ORGANIC AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2007

                               __________

                           Serial No. 110-23


          Printed for the use of the Committee on Agriculture
                       www.agriculture.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
40-684                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania             BOB GOODLATTE, Virginia
    Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``Randy'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 KEVIN McCARTHY, California
NICK LAMPSON, Texas                  TIM WALBERG, Michigan
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                           Professional Staff

                     Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

            William E. O'Conner, Jr., Minority Staff Director

        .........................................................

                               __________

          Subcommittee on Horticulture and Organic Agriculture

                DENNIS A. CARDOZA, California, Chairman

BOB ETHERIDGE, North Carolina        RANDY NEUGEBAUER, Texas
LINCOLN DAVIS, Tennessee                 Ranking Minority Member
TIM MAHONEY, Florida                 JOHN R. ``RANDY'' KUHL, Jr., New 
JOHN BARROW, Georgia                 York
KIRSTEN E. GILLIBRAND, New York      VIRGINIA FOXX, North Carolina
                                     KEVIN McCARTHY, California
                                     K. MICHAEL CONAWAY, Texas

                Keith Jones, Subcommittee Staff Director

        .........................................................

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Cardoza, Hon. Dennis A., a Representative in Congress from the 
  State of California, opening statement.........................     1
    Prepared statement...........................................    50
Neugebauer, Hon. Randy, a Representative in Congress from the 
  State of Texas, opening statement..............................     3
    Prepared statement...........................................    55
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota, prepared statement.........................    56
Goodlatte, Hon. Bob, a Representative in Congress from the 
  Commonwealth of Virginia, prepared statement...................    59

                               Witnesses

Day, Mr. Lloyd, Administrator, Agricultural Marketing Service, 
  United States Department of Agriculture, Washington, D.C.......     4
    Prepared statement...........................................    61
Acheson, Dr. David, M.D. F.R.C.P., Assistant Commissioner for 
  Food Protection, U.S. Food and Drug Administration, Rockville, 
  Maryland, opening statement....................................     7
    Prepared statement...........................................    66
Whitaker, Dr. Robert J., Ph.D., Vice President, Processing and 
  Technology, NewStar Fresh Foods, LLC, on behalf of United Fresh 
  Produce Association, Salinas, California.......................    27
    Prepared statement...........................................    77
Pezzini, Mr. Joe, Vice President of Operations, Ocean Mist Farms, 
  on behalf of Western Growers Association, Castroville, 
  California.....................................................    30
    Prepared statement...........................................    85
Roberts, Dr. Martha R., Ph.D., Personal Assistant to the 
  Director, Florida Experiment Station, University of Florida, on 
  behalf of the Florida Tomato Exchange, Tallahassee, Florida....    32
    Prepared statement...........................................    91
Christie, Ms. Lorna, Vice President, Produce Marketing 
  Association, Newark, Delaware..................................    34
    Prepared statement...........................................    99
DeWaal, Ms. Caroline Smith, Director of Food Safety, Center for 
  Science in the Public Interest, Washington, D.C................    35
    Prepared statement...........................................   102

                           Submitted Material

Day, Mr. Lloyd, Administrator, Agricultural Marketing Service, 
  United States Department of Agriculture, Washington, D.C.......   113


  HEARING TO REVIEW THE INDUSTRY RESPONSE TO THE SAFETY OF FRESH AND 
                           FRESH-CUT PRODUCE

                              ----------                              


                         TUESDAY, MAY 15, 2007

                  House of Representatives,
                          Committee on Agriculture,
      Subcommittee on Horticulture and Organic Agriculture,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Dennis 
Cardoza [Chairman of the Subcommittee] presiding.
    Members present: Cardoza, Etheridge, Davis, Barrow, 
Gillibrand, Neugebauer, Kuhl, McCarthy, and Conaway.
    Staff present: Adam Durand, Scott Kuschmider, John Riley, 
Sharon Rusnak, Debbie Smith, John Goldberg, Pete Thomson, and 
Jamie Weyer.

STATEMENT OF HON. DENNIS CARDOZA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Good morning. We will call to order this 
hearing of the Subcommittee on Horticulture and Organic 
Agriculture to review the industry response to the safety of 
fresh and fresh-cut produce, and it will all now come to order. 
I want to thank you all for attending this important hearing, 
and I want to thank the industry and also the consumer groups 
for being here today.
    This hearing is being called because maintaining the 
integrity of our nation's food supply is of paramount concern 
to us at this time. Not only mine as chairman of this 
subcommittee but as a consumer and as a parent as well. 
Americans spend over $1 trillion in food per year, both at home 
and in restaurants, and they place their faith in the 
agricultural industry and the federal and state regulatory 
agencies to ensure that those products are safe to consume.
    Generally, our food supply consistently meets high 
benchmarks for success in safety, but there are, of course, 
instances where the system fails, whether it be spinach, 
tomatoes, meat, poultry, or countless other products, foodborne 
illness can strike viciously and without warning.
    Ladies and gentlemen, I should know. I was personally 
affected by the salmonella outbreak in peanut butter earlier 
this year. So one can imagine my displeasure to read recent 
reports that the FDA knew this particular peanut butter plant 
had a spotty safety record, yet they continued to certify its 
compliance with food safety measures.
    Part of the problem may be that there are currently 15 
different regulatory agencies tasked with monitoring the safety 
and security of our food supply. From the Food and Drug 
Administration to USDA to Health and Human Services, each year 
thousands of federal employees inspect, verify, and approve all 
aspects of the food distribution chain.
    Together with their state counterparts, these agencies 
create arguably the safest food supply in the world. However, 
when the rare crack in the system occurs, the overall integrity 
and consistency of food safety in this country can be 
devastated. Families across the country who consume tainted 
products are unfairly put in harm's way, and the general 
public's confidence in the food supply is shaken to the core.
    Furthermore, farmers and processors are often unable to 
recover from the financial strains of severe market disruptions 
from the outbreaks. None of these consequences were more 
apparent than during the September 2006 E.coli outbreak 
associated with the consumption of fresh-cut spinach. Many in 
this room were directly involved in these days and weeks that 
followed that crisis. This response to the spinach outbreak was 
a wakeup call for both the federal government and the fresh 
produce industry.
    For the government, it became painfully obvious that the 
continued lack of support for specialty crops in the farm and 
food safety programs is taking its toll. Specialty crops have 
grown to nearly 50 percent of the farm gate value of American 
agriculture, yet very few federal dollars are spent on shoring 
up research, food safety, or best management practices for the 
industry.
    If we are serious about preventing further outbreaks, this 
equity can no longer be ignored. For the produce industry, 
while I must applaud them for fully cooperating with the E.coli 
investigation and trace-back attempts, it was apparent that 
previous practices designed to prevent outbreaks of foodborne 
illnesses fell short.
    The fresh produce industry has rested for too long on ill-
defined and unchecked management practices that left holes in 
the accountability of the entire system. However, there has 
been significant progress by the fresh produce industry, and 
their actions should serve as a model to their fellow 
commodities who have also fallen short in recent times.
    Shortly after the spinach crisis, the affected industries 
in California organized the California Spinach and Leafy Green 
Marketing Agreement, which licenses first handlers to certify 
compliance with best management practices for fresh produce. 
The agreement is a solid first step to strengthening industry 
practices and to quell consumer doubt in domestic fresh 
produce.
    But food safety standards for fresh produce should not be 
limited to just those producers and handlers in California. If 
proven to be effective, the best management practices in 
California's Spinach and Leafy Green Marketing Agreement should 
serve as a nationwide model for improving food safety.
    I am pleased to have Joe Pezzini, Vice President of Ocean 
Mist Farms and chairman of the agreement here to elaborate on 
food safety measures included in this agreement.
    Overall, I believe consumer confidence in fresh produce is 
back and stronger than ever. Americans recognize and appreciate 
the benefits of fresh fruits and vegetables in their diets and 
have responded well to the efforts of regulators and the 
industry to correct flaws in their food safety surveillance. 
But unfortunately it will only take one more incident to break 
down this progress, to move us back to square one, and to 
revive the unproven claims that our food supply is susceptible 
to dangerous pathogens.
    I remain extremely concerned that our food safety oversight 
is spread amongst too many different agencies, creating a 
systematic lack of responsibility and ownership over the food 
supply. I believe that one and only one federal agency should 
have responsibility for protecting the food supply.
    The USDA currently has a better relationship with state 
agencies and other officials on the ground level, and there 
seems to be an inherent lack of understanding at FDA about the 
unique growing practices of boutique crops like spinach, 
lettuce, and other fresh produce, which may have significantly 
hindered their ability to react quickly and confidently in a 
spinach crisis.
    A complete discussion of domestic food safety and reform 
should include a thorough examination of feasibility of USDA's 
control over this area in fruits and vegetables, in my opinion. 
The spinach crisis was not the first E.coli outbreak, and it 
certainly will not be the last. But as members of Congress, we 
have a duty and responsibility to carefully review these 
situations and to look for ways to improve the responses at the 
federal government level.
    I hope that we can use this hearing to gain a better 
understanding of the industry response to recent food safety 
concerns and continue the dialogue on strengthening domestic 
food safety compliance. I appreciate the witnesses appearing 
here today, and I look forward to their comments.
    With that, I would like to yield to the ranking member, my 
good friend, Mr. Randy Neugebauer of Texas.

    STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Neugebauer. Thank you, Mr. Chairman. Consumers in the 
United States are fortunate to have such a safe, abundant, and 
affordable supply of fresh fruits and vegetables. Sometimes we 
take for granted the many fresh produce choices available in 
our grocery store aisles and farmers' markets.
    It takes dedicated farmers, handlers, and packers to supply 
us with this variety and high quality of food, and I appreciate 
those of you who have taken time away from your busy operations 
to be with us today. Just as it takes a full supply chain for 
growers to supply consumers with fresh produce, it also takes 
an entire industry to make sure that the product is safe.
    You have a good track record when it comes to producing 
safe, high quality fruits and vegetables. And the industry has 
responded quickly to address problems on those occasions when 
food safety concerns have arisen. As producers and handlers 
know firsthand, the viability of your industry requires that 
you produce and sell a safe product that consumers remain 
confident in the safety of your product.
    I applaud produce growers and handlers for pursuing 
industry-lead marketing agreements, promoting best practices, 
and supporting research to increase the knowledge of how to 
keep fresh vegetables and fruits safe. Others have suggested 
that extensive federal programs regulation from the farm to the 
table would be a better approach. However, I am concerned that 
a rigid regulatory approach may not allow the industry the 
flexibility to adapt to practices and to new technologies. It 
may hinder growers' ability to produce the very crops that they 
are trying to sell. Allowing the industry to set research-
backed standards and practices and form cooperative marketing 
agreements can be an effective means to be able to ensure food 
safety when backed by government verification that standards 
are sound and being followed.
    I would like to hear more from AMS and FDA as well as the 
industry panelists on how all segments can best work together 
and make effective use of resources so that consumers can 
continue to be assured of the safety and quality of fresh 
produce that they buy for their families.
    Mr. Cardoza. Thank you, Mr. Neugebauer. The chair would 
request that other members submit their opening statements for 
the record so that witnesses may begin their testimony and we 
ensure that there is ample time for questions, and we will do 
our very best to make sure that every member has time to ask 
their questions today.
    I anticipate that a number of the rest of the members of 
the committee shall show up throughout the panel's 
presentation. There are a number of other hearings that are 
going on as we speak.
    I would like to call up and welcome the first panel to the 
table. We have with us today Administrator Lloyd Day from the 
Agricultural Marketing Service, United States Department of 
Agriculture in Washington, D.C. Thank you, Mr. Day. And also 
Mr. David Acheson, M.D., Assistant Commissioner for Food 
Protection, U.S. Food and Drug Administration from Rockville, 
Maryland. Thank you, Mr. Acheson, for being here with us today. 
Gentlemen, if you would please begin your testimony, and 
welcome to the committee. Mr. Day, you are up first.

 STATEMENT OF ADMINISTRATOR LLOYD DAY, AGRICULTURAL MARKETING 
        SERVICE, UNITED STATES DEPARTMENT OF AGRICULTURE

    Mr. Day. Mr. Chairman and members of the subcommittee, good 
morning and thank you for the invitation to appear before you 
today. I appreciate the opportunity to share with you a brief 
overview of the activities and services of USDA's Agricultural 
and Marketing Service, AMS, and to be here with my colleague, 
Dr. David Acheson, from FDA.
    As you know, the U.S. Food and Drug Administration is the 
Federal agency with primary responsibility for the food safety 
of horticultural products. At the U.S. Department of 
Agriculture, the Food Safety and Inspection Service holds 
similar responsibility for meat, poultry, and egg products. The 
mission of AMS is to facilitate the strategic marketing of 
products in the domestic and international marketplace. AMS is 
not a food safety agency.
    The agency does respond, however, to requests from 
producers to support their product quality control efforts. For 
example, producers have asked AMS to establish programs to 
provide independent verification that FDA guidance is being 
followed. For many decades, AMS has offered voluntary, user-
funded, product quality grading services as well as plant 
sanitation reviews based on FDA's good manufacturing practices.
    In recent years, AMS has expanded these traditional 
services through the addition of audit-based programs based on 
internationally recognized quality management system protocols. 
Some of these newer programs incorporate food safety related 
elements reflecting market demand for greater food safety 
assurance as a quality attribute of products being marketed.
    In the horticulture or specialty crops area, AMS product 
grading, plant sanitation review, and audit-based programs are 
conducted with a Federal workforce of some 800 full and part-
time employees. Additionally, AMS has cooperative agreements 
with nearly all state departments of agriculture, under which 
their fruit and vegetable inspectors receive training and are 
granted federal licenses to assist in the delivery of AMS 
services and programs, adding another 3,500 skilled 
professionals to the agency's deployable workforce.
    One recent example of an audit-based program fashioned 
around food safety related objectives is the Good Agricultural 
Practices and Good Handling Practices Audit Verification 
Program. This program assists farms and packing houses through 
verification of their adherence to FDA's Guide to Minimize 
Microbial Food Safety Hazards for Fresh Fruits and Vegetables. 
It is a uniform nationwide program that is voluntarily funded 
by user fees. Primary users of this program include fresh fruit 
and vegetable growers, packers, shippers, and others in the 
marketing chain.
    Currently audits are performed at 317 farms and facilities 
in 32 states and Puerto Rico, with larger numbers of 
participants in California, Oregon, Washington, North Carolina, 
and New Jersey. Nearly 100 fruit, vegetable and other specialty 
crops are covered. AMS staff and AMS licensed and trained state 
employees perform the on-site audits.
    Another example of an audit-based program offered by AMS is 
a Qualified Through Verification, or QTV, program that assists 
fresh cut fruit and vegetable processors in managing food 
safety risks. There are currently nine fresh cut plants 
participating in the QTV program.
    QTV is a voluntary, user fee funded program that provides 
third party verification of the fresh cut processors adherence 
to Hazard Analysis Critical Control Point, HACCP, Plan. Under 
the QTV program, processors identify and document critical 
points in their production process, measure performance of 
their operation at these critical points, and position 
themselves to detect and direct any deficiencies that might 
emerge.
    AMS staff involved in administering this program have 
received training in HACCP and audit procedures. Authorized by 
the Agricultural Marketing Agreement Act of 1937, marketing 
orders and agreements assist farmers by allowing them to 
collectively work to solve marketing problems. Industries which 
voluntarily enter into these programs in this way choose to 
have federal oversight of certain aspects of their operations.
    Marketing orders, supported through industry referenda, are 
binding on individuals and businesses that are classified as 
handlers in the geographic area covered by the order. Marketing 
agreements are binding only on handlers who are voluntary 
signatories of an agreement. Presently there are 30 active 
marketing agreement and order programs covering 25 specialty 
crop commodities. Fees are collected from handlers to cover 
local costs of administrating these programs.
    Under federal marketing orders, USDA considers food safety 
to be a quality characteristic of regulated fruit, vegetable, 
and specialty crops, and that the absence of harmful pathogens 
or toxins is a characteristic of higher quality products.
    In response to producer requests for support of their 
product quality control efforts, AMS has incorporated food 
safety-related requirements in marketing agreements and 
marketing order regulations for many years. For example, 
testing for aflatoxin has been required for U.S. grown peanuts 
since 1965, originally under a Federal marketing agreement and 
subsequently through separate legislation administered by AMS.
    A large majority of current active Federal marketing order 
programs include minimum requirements with most U.S. grade 
standards having criteria related to food safety. For example, 
lack of mold, insects, foreign material, et cetera. Since 1961, 
for example, the marketing order for California prunes has had 
inspection and fumigation requirements relative to live insect 
infestations. Similar requirements for insects as well as the 
presence of dirt or mold have been in place for California 
raisins since 1977.
    Beginning in 2005, pistachio handlers were required to test 
all nuts destined for human consumption for aflatoxin, which at 
present, would lower the quality and market value of those 
pistachios. Also, for the upcoming 2007/2008 crop, almond 
handlers will be required to treat almonds prior to treat 
shipment to reduce the chance of salmonella contamination, a 
health hazard that can lower the quality and value of almonds 
shipped to the market.
    Following the September 2006 E.coli outbreak linked to 
fresh spinach grown in the Salinas Valley, the California 
Department of Food and Agriculture began designing a state 
marketing agreement that would require adherence to good 
handling practices for most companies involved in shipping 
leafy greens in the state. The California Spinach and Leafy 
Green Marketing Agreement became effective in February 2007.
    AMS has cooperated with CDFA in the verification aspects of 
the agreement, including the design and delivery of training 
for the California state auditors who will monitor compliance.
    To conclude, Mr. Chairman, I would like to reiterate that 
food safety policy and the establishment of food safety 
standards are not within AMS's mandate. However, AMS does have 
significant experience and expertise in the design and delivery 
of marketing programs, including those involving inspections 
for product quality and verification of production processes. 
At industry's request, AMS has incorporated food safety related 
elements in several of its marketing programs for the produce 
industry. Thank you, and I would be pleased to respond to any 
questions.
    Mr. Cardoza. Thank you, sir. We will now have Mr. Acheson 
testify, and then we will have the committee ask you questions. 
Thank you. Mr. Acheson.

   STATEMENT OF DR. DAVID ACHESON, M.D., F.R.C.P., ASSISTANT 
     COMMISSIONER FOR FOOD PROTECTION, U.S. FOOD AND DRUG 
                         ADMINISTRATION

    Mr. Acheson. Good morning, Chairman Cardoza and members of 
the subcommittee. I am Dr. David Acheson, assistant 
commissioner for food protection of the Food and Drug 
Administration. In this newly created position, Commissioner 
Von Eschenbach has asked me to provide advice and counsel on 
strategic and substantive food safety and food defense matters 
based on my knowledge and experience of the science behind food 
protection.
    FDA appreciates the opportunity to discuss the recent 
outbreaks of foodborne illness associated with fresh produce 
and the measures we are taking to enhance the safety of these 
products. I am pleased to be joined here today by my colleague, 
Mr. Lloyd Day of USDA.
    At FDA, ensuring that the products we regulate are safe and 
secure is a vital part of our public health mission. The agency 
regulates everything Americans eat except for meat, poultry, 
and processed egg products, which are regulated by USDA.
    FDA is committed to ensuring that America's food supply 
continues to be among the safest in the world. In recent years, 
we have done a great deal to product the food supply from 
contamination, but the recent outbreaks of foodborne illness 
associated with fresh produce, peanut butter, and animal feed 
underscore the need to develop new, risk-based, farm-to-table 
approaches that integrate food safety and defense and focus on 
prevention, intervention and response.
    These new strategies are necessary to meet the challenges 
created by changes in the global food supply, changes in 
farming, manufacturing, and processing practices, and changes 
in consumer needs. The number of illnesses associated with 
fresh produce is a continuing concern of the agency, and we 
have worked on a number of initiatives to reduce the presence 
of pathogens in these foods.
    The fact that produce is often consumed raw or with only 
minimal processing without any type of intervention that would 
reduce or eliminate pathogens prior to consumption contributes 
to its potential as a source of foodborne illness. 
Consequently, addressing the way fresh produce is grown, 
harvested, and moved from farm to table is crucial to 
minimizing the risk of microbial contamination.
    FDA has worked with many of our food safety partners to 
produce industry guidelines that focus on preventing 
contamination. We have also focused our collective efforts on 
research to gain a better understanding of the fundamental 
reasons by foodborne agents get into fresh produce and to share 
our knowledge to date through educational outreach with 
affected parties and the public.
    With regard to industry guidelines, in March of this year, 
FDA issued a draft final version of its guide to minimize 
microbial food safety hazards of fresh cut fruits and 
vegetables. This guide should help industry reduce the health 
hazards that may be introduced or increased during the 
production of fresh cut produce.
    We have also assisted the industry in developing a number 
of other commodity-specific guidelines for the commodities most 
often associated with foodborne illness outbreaks. These 
include guidelines for lettuce and leafy greens, melons, and 
tomatoes. We are working with industry on similar guidelines 
for herbs and green onions.
    The example of fresh sprouts illustrates how successful 
these efforts can be. In 1999, there were 390 reported 
illnesses associated with eating contaminated fresh sprouts. 
FDA published two guidance documents for sprouts that year. We 
believe that the subsequent decline in sprout-associated 
illness was in large part due to the industry's adherence to 
the FDA recommendations. In 2004, only 33 illnesses were 
reported associated with fresh sprouts, and in 2005 and 2006, 
there were none.
    The recent initiative of the California Department of Food 
and Agriculture, the Leafy Green Handler Marketing Agreement, 
is another important step toward improving the safety of these 
foods. This program verifies and certifies that growers are 
adhering to good agricultural practices. We also work closely 
with our partners on research to enhance food safety.
    For example, for the past decade, FDA has worked closely 
with USDA's Agricultural Research Service and Cooperative State 
Research, Education, and Extension Service to coordinate and 
mutually support our respective research efforts related to 
produce safety. We worked together to analyze water samples 
from the Salinas watershed for E.coli O157:H7 and to relate the 
location of bacteria to geographical, seasonal, or rainfall 
variation. An extension of this research will look for sources 
of E.coli O157:H7 in California's Salinas Valley. Information 
obtained from this study will be used to inform produce growers 
about strategies to prevent preharvest microbial contamination.
    Educational outreach and the sharing of safety information 
with affected parties is another important component of 
enhancing the safety of fresh produce. In February, we 
participated in a forum sponsored by the Western Institute for 
Food Safety and Security to share information regarding the 
safety of lettuce and leafy greens on the farm and at packing, 
cooling, and processing facilities.
    Also in February, the FDA affiliated joint Institute for 
Food Safety and Applied Nutrition, and the University of 
Florida sponsored a workshop to improve understanding of how 
tomatoes become contaminated with salmonella and other 
pathogens. Later this month, FDA, the National Center for Food 
Safety and Technology, and the University of Georgia's Center 
for Food Safety will cosponsor a workshop on microbial testing 
to reach a consensus on the role of microbial testing in 
ensuring the safety of produce.
    In addition, the agency recently held two public hearings 
concerning the safety of fresh produce. The purpose of these 
hearings was for FDA to share information about recent 
outbreaks of foodborne illness related to fresh produce and to 
solicit comments, data, and additional scientific information 
on this issue. The administrative record tied to these hearings 
will remain open until June 13, 2007.
    In summary, FDA continues to work with federal, state, and 
international food safety partners and with industry to address 
fresh produce and broader food safety food defense challenges 
in our nation's food supply. As we move forward, we are 
focusing our attention on three key areas: preventing 
contamination through a strong science base, risk-based 
preventative controls, and leveraging with key partners; 
improving intervention methods by using modern technology to 
establish a comprehensive integrated food information system to 
analyze information and detect potential contamination; and by 
enhancing our rapid response capabilities by, for example, 
improving product tracking. Thank you for the opportunity to 
discuss FDA's ongoing efforts to improve the safety of fresh 
produce. I would be happy to answer any questions you may have.
    Mr. Cardoza. Thank you, Dr. Acheson. My first question goes 
to Mr. Day. In your testimony, sir, you testified that AMS 
cooperative programs are funded by producers and packing houses 
through user fee collections. Please tell the subcommittee how 
much is contributed by the industry for these purposes and can 
you provide briefly program-by-program detail for the record of 
this hearing?
    Mr. Day. I would be happy to provide more detail for the 
record. The audits cost essentially $75 an hour, and an audit 
of a packinghouse or something like that would take about 8 
hours. So that is about $600 for an audit. As to the total 
number, the value for all the audits we perform, we did 352 
last year, so you would probably multiply that times $600, and 
that would be the total contribution that goes to not just AMS 
but also to the states that do a lot of the auditing.
    Mr. Cardoza. How many packinghouses and shippers are there 
in the country that you should be inspecting?
    Mr. Day. I don't have the actual number of all those, but 
we are doing over 300 right now.
    Mr. Cardoza. Okay, sir, if you could get that for us 
because I think that speaks to also the issue of how many are 
being certified, how often that needs to be done, that would be 
helpful.
    Mr. Day. All right, we would be happy to provide that to 
you.
    Mr. Cardoza. Thank you. Sir, in my opening statement, I 
mentioned that I believe that there should be 1 regulatory 
agency that is responsible for all food safety questions so 
that there is accountability. I don't necessarily think that 
just shifting bureaucracies is always the answer. Certainly the 
Homeland Security Department has sort of proven that philosophy 
not to be necessarily the best situation.
    But I would like to ask you very pointedly if you think 
that USDA would be a better agency to address this question of 
produce food safety.
    Mr. Day. Well, we believe that the existing food safety 
system is working, that the American food supply continues to 
be among the safest in the world. Since AMS is a marketing 
agency and we just provide assistance to potential quality 
attributes related to food safety, I don't think it would be in 
my purview to opine as to whether AMS or USDA versus FDA would 
be the appropriate agency. So I will decline to comment on 
that, sir.
    Mr. Cardoza. Dr. Acheson, has FDA taken any actions 
requiring fruit and vegetable producers and processors to have 
written plans about contamination risks and how to address 
them?
    Mr. Acheson. With regard to written plans, in terms of 
processes, yes, there is a requirement for good manufacturing 
practices at the processing level. That requires the 
maintenance of certain records around sanitation issues. When 
you get down to producers at the farm level, the answer is no.
    Mr. Cardoza. Okay, where did the contamination take place 
in some of the most recent outbreaks?
    Mr. Acheson. You mean in the spinach outbreak?
    Mr. Cardoza. Yes.
    Mr. Acheson. Most likely the site of contamination was at 
the farm level and----
    Mr. Cardoza. Okay, so basically what you just told me is 
that you have got some regulatory measures in place, but at the 
level the contamination took place, there is no requirement of 
any plan?
    Mr. Acheson. That is correct.
    Mr. Cardoza. Was the contamination of the spinach due to 
systemic fluid uptake through the roots of the plant, or was it 
surface contamination on the surface of the plant through 
irrigation water splashing up or contaminants on the outside 
that weren't controlled by the washing? And if it was the 
latter, did the packaging of these products contribute to how 
virulently the pathogen contaminated humans?
    Mr. Acheson. In truth, we don't know exactly how the 
spinach became contaminated. The ideas that you just mentioned 
are all plausible hypotheses. That it came in through the root 
system, that is certainly potentially possible. Frankly, I 
think it is more likely that it was external contamination. 
Once E.coli O157 sticks to a leaf of a piece of spinach, it 
sticks on very tightly, and it is hard to get it off. So 
precisely how that spinach became contaminated, we don't know 
in that context. It could have been through water. It could 
have been through wild animals. It could have been from birds. 
It could have been a variety of possible sources.
    Once that product is contaminated at the farm level, then 
clearly what has to be done is to prevent further contamination 
of other product. Proper processing of the spinach, proper 
washing with appropriate chlorine levels, et cetera, will 
minimize the likelihood of spread. It will not necessarily kill 
E.coli that are already on that spinach. But clearly processors 
have a responsibility to make sure that, if there is a problem, 
it doesn't spread to other spinach that is not contaminated to 
begin with.
    Mr. Cardoza. It seems to me, sir, that we need to find out 
these answers, that we need to know what is causing what some 
believe is increased outbreaks. I don't know that there is 
increased, or just that we are finding more of them. But what 
it speaks to me is that there is a lack of research dollars 
being put into this area. That is really the federal 
government's role in my mind is to make sure that we provide 
safety, that we provide security, and we find out what the 
causes are. That has traditionally been the federal 
government's role in research.
    Has your administration put forward an increased research 
budget for this area?
    Mr. Acheson. First of all, I couldn't agree with you more. 
A fundamentally sound scientific infrastructure to make food 
safety decisions is critical. You cannot make good decisions if 
you don't have sound science and sound scientific 
infrastructure to do that. To get that, you need the 
appropriate resources, and you need the research to get the job 
done.
    FDA is not a research agency. We are a regulatory agency. 
What we do with regard to research is work with our research 
colleagues, especially in the department of agriculture, 
agricultural research services, as well as CSREES in terms of 
working with them and looking at the critical areas, what needs 
to get done, what are the critical answers. So that is how we 
do that. We are essentially sharing our knowledge, sharing our 
concerns with the research agencies who can actually get the 
job done.
    Mr. Cardoza. Sir, I agree with what you just said, other 
than the part where I need to know whether your administration 
has asked for an increase in the research budget to get to the 
bottom of these problems.
    Mr. Acheson. I believe in the current FY '08 request there 
is an increase in research, specifically yes.
    Mr. Cardoza. Okay, one last question. There is going to be 
testimony here later on today by another witness that says that 
the number of inspections has actually decreased dramatically 
in the last 3 years. Is that true?
    Mr. Acheson. Yes, but I think one has to look at how 
inspection is done. I mean this obviously has been a focus with 
regard to imports, and what the agency is doing is using a 
risk-based strategy. Simply inspecting more foods just because 
they are there is not the answer to the problem. It has to be 
risk-based, targeted inspections. But that alone isn't going to 
solve the problem. What we are trying to do, and part of my new 
role in this new position is to create this strategic thinking, 
is to move back, which gets at some of your earlier comments, 
focus on the preventative strategies. We don't want to inspect 
our way out of this problem. We want to prevent it, and you 
have got to have the scientific infrastructure to do that.
    Mr. Cardoza. I would suggest to you, sir, that we need 
both.
    Mr. Acheson. I couldn't agree more, but if you prevent it, 
intervene, and then have a robust response system, that is the 
best that you can do to prevent it ever getting on the dinner 
plate. And if it does, to respond quickly.
    Mr. Cardoza. I have so many more questions, but I am going 
to turn it over to my colleagues because I know they have 
excellent questions as well. Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. Mr. Day, in the 
last 9 months, have you seen an increase in the amount of 
verification in audit requests that you have had from your 
agency?
    Mr. Day. Yes, Congressman Neugebauer. In fact if you look 
at '06 inspections versus '07 inspections, we have seen an 
increase of about 108 percent, so certainly there is a growing 
demand for these kind of services by the industry. And much of 
that is demanded by their customers down the marketing chain.
    Mr. Neugebauer. Well, I think that was my question is I 
would suspect that people that are marketing the fruits and 
vegetables are probably very anxious to have that certification 
to give them some insurance that, in fact, that their products 
are going to be safe.
    Mr. Day. Yes, you are exactly right, sir. There is 
certainly a trend by those that are purchasing the product to 
have this kind of good agricultural practices or good handling 
practices seal of certification to add value, to add some sense 
of safety to the product as they receive it.
    Mr. Neugebauer. What percentage of the end user, the people 
that are marketing fruits and vegetables, what percentage of 
those folks do you think are requiring some kind of a 
certification in audit process? In other words, how strong is 
the market demand for that?
    Mr. Day. Yes, I don't have an actual number on that. We can 
try and find that number and send it to you, but it is 
certainly growing. Major retailers as well as restaurants are 
looking for more and more food safety assurances, especially 
given the recent outbreaks. And I think as the chairman 
mentioned, whether there are an increase in outbreaks or 
whether we are just noticing more outbreaks because of improved 
communication and technologies is a very fundamental question 
to this whole debate.
    Mr. Neugebauer. Maybe this is a question for Dr. Acheson, 
but are there disclosures to the end users on best practices of 
washing fruits and vegetables before consumption? I mean within 
the restaurants, within the packaging of the end user. Because 
I know that my grandmother used to wash vegetables until you 
couldn't tell what they actually were when she got through with 
them for the very reason she was concerned about that. But what 
kind of responsibility does the end user or the consumers have 
as far as taking some due diligence there? Dr. Acheson.
    Mr. Acheson. Sure. Consumers do have a responsibility, as 
does everybody who handles food, whether it is from the grower, 
the processor, the packer, the distributor, the retailer, all 
the way down to the consumer. Once the consumer gets a hold of 
that and it is the kitchen, they have responsibilities. And we 
have had and continue to have extensive educational programs 
about food safety in general, cooking, chilling, cleaning, 
separating in that context. We have specific consumer 
information on what to do with leafy greens and how to wash 
them and fruits and vegetables. And that is an important part 
of the consumer message, and as we were dealing with spinach on 
an ongoing basis, those consumer messages were constantly being 
repeated in terms of what consumers can do to help ensure the 
safety in their own homes.
    Mr. Neugebauer. I notice that FDA has issued guidance 
documents to producers in industry to help them understand good 
agricultural practices or GAPs as I believe they are referred 
to. Are those generic, or are they commodity specific? In other 
words, do you have different guidelines for tomatoes, lettuce, 
spinach, fresh fruit, or are these general or specific?
    Mr. Acheson. We have both. The original good agricultural 
practices document that was issued in 1998 was broad and 
focused on good agricultural practices pretty much across the 
board. Since then, we have issued a number of product-specific 
guidelines. Melons, sprouts, fresh cut produce is the most 
recent one, and we are working on others as I mentioned in my 
oral testimony on herbs and other things. So we have the broad 
approach and then the more focused one.
    Mr. Neugebauer. Just in my final time here, if I could get 
each one of you to respond to this. How are the two of you 
working together? Explain to me interaction that your two 
agencies would have when it comes to the food safety for fruits 
and vegetables. I will start with Mr. Day.
    Mr. Day. Sure. We have an ongoing consultative relationship 
with FDA for its voluntary GAP and good handling practices and 
other audit-based programs. What happens is when they would 
change their guidelines, they would notify us. We would change 
how we actually go out and audit a program to be based on those 
specific guidelines for whether it is tomatoes or cantaloupes 
or leafy greens. And as we are out in plants, we have a 
memorandum of understanding. So that if we notice something 
that might be some kind of an egregious food safety problem, we 
would certainly notify FDA and FDA notifies us in the kind of 
things that might be related to the marketing issues that we 
need to be cognizant of.
    Mr. Neugebauer. Dr. Acheson.
    Mr. Acheson. I think my colleague here has summarized it 
well. We have a very good working relationship. When we develop 
a new scientific approach, we make sure we share it with the 
people who are interacting on a more ongoing basis. AMS has a 
great capability of actually getting boots on the ground in 
some of these places. It is more eyes. It is more ears, 
educating and looking for problems. To give you a specific 
example of the interaction, since food defense came on the 
scene, we work closely with AMS, and we had individuals over on 
detail at FDA to understand the nuances of the importance of 
food defense and how to put it into context for industry as a 
whole, not just produce, but it applies to produce.
    So there is a very good working relationship, and I think 
the two of us essentially form part of this integrated team, 
which is what makes the food safety system what it is right 
now.
    Mr. Neugebauer. Mr. Chairman, I believe I have 
overextended. Thank you for your indulgence.
    Mr. Cardoza. I thank you for excellent questions, Mr. 
Neugebauer. The chair would like to remind members that they 
will be recognized for questioning in order of seniority for 
members who were here at the start of the hearing. After that, 
members will be recognized in order of arrival, and I 
appreciate members understanding. I would now like to recognize 
the gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Let me thank you 
for holding this hearing. I note with regret though the failure 
of FDA to provide witness testimony in a timely manner, and I 
hope that will not be the case in the future because it helps 
us do a better job of being prepared.
    As I mentioned in the full committee hearing on food safety 
that we held last week, our food supply here in the United 
States has always been referred to as the safest and most 
abundant in the world, and I hope we are able to keep saying 
that. But the outbreak that we have had in the last year of 
spinach in California, the problem with lettuce at Taco Bell, 
and now tainted pet food, and we find that some of it has 
gotten into the food chain of some of the chicken and pork. I 
just want to stress that we have got to get our hands around 
this whole issue so that consumers will not be suspicious of 
the food they are feeding their children.
    And my home state of North Carolina is a major producer of 
fruits and vegetables for the east coast. And if we want to 
make sure the industry continues to grow and increase exports, 
it is critical that we get this done and don't have other 
outbreaks.
    Nobody remembers how many good meals they get, but I 
guarantee you they are going to remember the bad ones. So Mr. 
Day, you mentioned several programs that AMS has implemented to 
ensure food and vegetable safety. Did you say that AMS 
agreement with California Department of Food and Agriculture to 
address the spinach issue was voluntary?
    Mr. Day. Yes, sir.
    Mr. Etheridge. Well, aren't some of the programs, such as 
those monitoring aflatoxin in peanuts and salmonella in almonds 
mandatory?
    Mr. Day. Yes.
    Mr. Etheridge. Why are some of these problems voluntary?
    Mr. Day. Well----
    Mr. Etheridge. Some are not. Doesn't this compromise the 
entire system?
    Mr. Day. Well, some are voluntary because they are part of 
the marketing agreement in which the handlers and producers 
voluntarily become part of that. A marketing order, on the 
other hand, is mandatory, and there is a referenda every 5 
years so that the peanut growers, for instance, or the almond 
growers, they vote to be a part of this order. And once a 
change or some kind of a regulation is----
    Mr. Etheridge. I appreciate that, but doesn't it compromise 
the system?
    Mr. Day. Well, I don't think it compromises the system. I 
think it is just different systems.
    Mr. Etheridge. Okay, next question. Does USDA have an 
estimate as to the impact that last year's contaminated spinach 
or lettuce had on U.S. exports, and, for that matter, domestic 
costs?
    Mr. Day. On U.S. exports, I don't think it was tremendous, 
but I did hear a number that it cost the industry perhaps $100 
million. I think most of that was geared toward domestic 
consumption decline.
    Mr. Etheridge. $100 million?
    Mr. Day. I heard that, but I don't know that is the 
accurate value.
    Mr. Etheridge. Okay, let me ask a question as it relates to 
FDA. What is the FDA doing to increase trace-back technology to 
hopefully limit the extent of the damage when inevitable 
breakdowns occur?
    Mr. Acheson. First of all, may I just apologize that you 
didn't get the paperwork in a timely manner. We will try to 
make sure that doesn't happen.
    Mr. Etheridge. Thank you, sir.
    Mr. Acheson. Improving trace-back is all part and parcel of 
where we need to be moving with this strategic plan around 
protecting the food supply. The trace-back piece, the response 
piece is when things have failed and people or pets have 
started to get sick, what can we do to get onto it. You asked 
specifically about what we are doing to develop that. At this 
point, we are simply trying to make sure that our current 
systems are robust enough to handle data when it comes in a 
timely way.
    But I think this needs to be looked at in a more radical 
way. We talked about basic science around preventing the bugs 
getting there in the first place. I believe we need 
technological infrastructure to better be able to handle data 
to get faster tracking in such a way----
    Mr. Etheridge. Have you requesting funding for that, or do 
you need funding to make sure that happens?
    Mr. Acheson. Part of the strategic thinking that I am 
working on is looking at this big picture and whether that is--
how that would fit into it. But there is a need to go down that 
road, but we are not at that point yet.
    Mr. Etheridge. Do you have funds in this year's budget for 
that?
    Mr. Acheson. That is not currently in there yet.
    Mr. Etheridge. Will you request that before this year is 
out so we can get it in the budget?
    Mr. Acheson. I don't exactly know where that is going to 
go, and part of my role is to develop this plan as quickly as 
possible. And if we can do it to get it in this year, then that 
would be the goal.
    Mr. Etheridge. We look forward to having that. Let me go 
back to one final question, Mr. Chairman, because you mentioned 
earlier that the number of inspections had dropped. You did not 
answer why. So I would like to know why they dropped.
    Mr. Acheson. I beg your pardon. Could you repeat that?
    Mr. Etheridge. In the previous testimony with the chairman, 
you said the number of inspections had dropped, and I wanted to 
follow up as to why they dropped.
    Mr. Acheson. What we are having to do at FDA is to allocate 
the resources that we have in the areas of maximum risk. In the 
context of inspections, we have shifted things around a little 
bit. Some things have been inspected slightly more frequently, 
particularly certain aspects of imports, others less. Overall, 
as the resources have had to be moved around, the total number 
of inspections have dropped. I mean that is just the way it is.
    Mr. Etheridge. I will close with this. It seems to me if 
numbers have dropped and the problems have increased and we are 
reallocating resources, we may need to reallocate resources 
again to get more inspection because it seems to me to give the 
confidence to the American consumer when we are importing more 
foods, we got a real problem if we aren't inspecting. I would 
ask you to take a look at that because I think that is a 
critical issue. Thank you, Mr. Chairman. I yield back.
    Mr. Cardoza. Thank you, Mr. Etheridge. I appreciate your 
questions. Now, I would like to turn it over to 5 minutes of 
questioning by Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Mr. Acheson, you 
talked about a risk-based model that, I assume, focuses our 
attention on the areas of greatest risk. As the food moves from 
the producer to the table, can you talk to us about how you are 
evaluating this and what this risk-based model is and how you 
evaluate the various stages and what your plans are to address 
those risks in this model?
    Mr. Acheson. With regard to risk, you have got to look at 
it very broadly, and it has got to be farm-to-table continuum, 
and it has got to look at domestic as well as imported. But to 
take your specific example, let us take, since we have been 
talking about spinach, the risk to spinach. Clearly when you 
are looking at the history of spinach that is starting out in 
an open field, what are the risks associated with the 
contamination there, and how do you prevent them?
    Once it is then in a processing facility, what are the 
risks associated with that in terms of how it is washed, how it 
is handled? Clearly that is not an environment where fresh 
contamination is likely from an external source. It is not 
impossible, but it is not as likely as a field. The greater 
risk is through spreading.
    Then as you are moving down beyond the processing, let us 
say it is in a bag. It is prewashed. There are issues with 
distribution and retail in terms of refrigeration. If those 
products are not adequately refrigerated, if there are low 
levels of E.coli on there, they could potentially grow. So 
there is a risk in that context.
    When you move it into the consumer environment, clearly the 
need to keep it refrigerated, there is also a risk. And then 
there is actually a risk of cross-contamination in a consumer 
environment or restaurant environment from, example, say raw 
meat would spread the juices onto the leafy greens. So there 
are different degrees of risk at different points in that 
chain.
    And the inspection, the testing resources and the 
preventative strategies need to be tailored based on where that 
risk is because the controls and the risks on the farm are very 
different than the controls and risks as you move further down 
that chain. So it is clearly complex, and it is multifaceted. 
And you need to be looking at the whole piece.
    Mr. Conaway. Right, and so do we have that in place?
    Mr. Acheson. Beg pardon? Do we have what?
    Mr. Conaway. Do you have that model in place?
    Mr. Acheson. We do not have that model in place yet, but 
that is part of----
    Mr. Conaway. And the timeframe for implementing the model, 
or obviously it is not going to be same model for everything we 
eat, but where are you in your work?
    Mr. Acheson. These broad preventative strategies focused on 
risk and intervention are exactly what I am working on now in 
my new position. It is going to take a little while before we 
get all this figured out because it is complicated. As to how 
long? I don't know exactly how long, but I can tell you it is a 
top priority for us to get something put in place as quickly as 
possible.
    Mr. Conaway. All right. Mr. Day, you talked about the 
cooperation between California and USDA and what appears to be 
good work to the California legislature has done with respect 
to, I guess, lettuce and green leafy stuff. Do the states work 
well together across state lines? In other words, are the 
agriculture group in Texas adopting the same kind of a model 
that California has done? Can you talk to us a little bit about 
the----
    Mr. Day. Sure.
    Mr. Conaway. --cross-state cooperation?
    Mr. Day. Actually, commodity groups and major purchasers 
across the country are developing specific food safety programs 
or contract requirements related to good agricultural practices 
and good handling practices. Several initiatives, to just list 
them out of you, include California Cantaloupe, California 
Leafy Greens, Florida Tomatoes, California Strawberries, 
California Citrus Research Board, The Georgia Fruit and 
Vegetable Growers Association, the American Mushroom Institute, 
the National Watermelon Association, and some of the potato 
growers up in the Pacific Northwest. So there is a wide variety 
of groups that are looking at developing new product safety 
standards, most of them based on the FDA guidelines and then 
finding ways that they can audit toward those to ensure the 
customers down the marketing chain that they have improved and 
they have the latest good agricultural practices in place.
    Mr. Conaway. So, in your view, do states look at each 
other's best models? Do the best models actually percolate 
across states, or is it that the commodity groups are doing it, 
and it spreads that way.
    Mr. Day. Yeah, there is a lot of collaboration among the 
state departments of agriculture on this very issue right now.
    Mr. Conaway. The $100 million that you say the spinach 
lost, is that spread across the whole----
    Mr. Day. The whole country.
    Mr. Conaway. No, I know. But the losers in that $100 
million were all the way from the producers to the folks that 
got sick. I mean is that----
    Mr. Day. Right, from the producers----
    Mr. Conaway. So everybody along the chain had some pain in 
that system----
    Mr. Day. Right.
    Mr. Conaway. --in order to try to motivate them to fix 
whatever needs to be fixed?
    Mr. Day. Precisely.
    Mr. Conaway. All right, thank you. Yield back.
    Mr. Cardoza. Thank the gentleman from Texas. I am going to 
now proceed to call up the gentleman from Tennessee, Mr. Davis, 
for questioning, but before I do that, I would like to request 
for the gentleman an opportunity to yield back to me for just a 
moment for a question for Acheson.
    Mr. Davis. Thanks, Mr. Chairman. I yield as much time that 
you have allotted me that you may consume.
    Mr. Cardoza. Thank you, and we will let you go a little bit 
more in a just a minute. But Dr Acheson, I know you have only 
been on your position for a short time, and I really don't want 
to beat you up that it always seems like the guy that comes in 
to fix the problems are the ones that we end up asking the 
tough questions to rather than the people that were in place 
before they got there. So I apologize for this.
    But earlier in your testimony, you told me that FDA does 
not support research and doesn't do research in these areas. 
And in fact, that is wrong. You have research centers in 
Mississippi, Illinois, and Maryland currently, nothing in the 
west coast or the western part of the United States. And there 
have been a number of folks, universities, working with FDA to 
locate FDA scientists in the West where the vast majority of 
fruits and vegetables in this country are grown; although, they 
are grown all over the country, as Mr. Etheridge mentioned 
earlier. In fact, the folks who, through the miracle of 
technology, have informed me of this fact, said that they have 
been working with FDA for some time getting a lot of 
encouragement at the lower levels but that the brass at the top 
has not been nearly as forthcoming with the desire to locate 
research on the west coast.
    So I am going to allow you to speak to that, but I just 
wanted to correct that inaccuracy that was in the record.
    Mr. Acheson. Well, thank you for your correction. Maybe I 
misspoke slightly, but I think what I said was that FDA is not 
a regulatory agency--a research agency, I am sorry. FDA is not 
a research agency. That doesn't mean that the agency doesn't do 
some level of research. We have research labs in our offices at 
College Park. And, as you pointed out, we do research in 
various other places. What I did not want to leave you with the 
impression with was that FDA has the current structure and 
resources to be able to drive the research program that is 
needed with regard to solving the problems in fresh produce and 
other food safety areas.
    Yes, we do some research, but it is not at a level of a 
research agency. In terms of----
    Mr. Cardoza. Just a second, Mr. Acheson. That is exactly my 
point. What you just said was the reason why I asked the 
question was that we don't have the structure currently----
    Mr. Acheson. Yes.
    Mr. Cardoza. --to do the research that is necessary. And 
your administration hasn't asked for it.
    Mr. Acheson. I would agree that we don't have the required 
structure, and that is part of what I am trying to build here 
is what is the research structure going to look like. And it is 
going to take resources and energy to make that happen.
    Mr. Cardoza. I couldn't agree more. Mr. Davis, I am going 
to turn it back over to you and ask this clerk to reset the 
clock for Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you very much, and the 
ranking members for holding this hearing today. And I also want 
to thank the witnesses who are here testifying today. It has 
been often said that the number one priority for those who 
serve in government is to be sure that Americans are protected. 
This not only extends to fighting terrorism in Homeland 
Security or making sure we have plenty law enforcement 
officials on the street.
    Food safety is also an important issue, one that relates to 
our protection from tainted or unhealthy food. One of the major 
reasons American agriculture products are the best in the world 
is that they are also the safest. American consumers have a 
great deal of confidence in the safety of our food. The 
repercussions of this confidence eroding would be unbelievably 
immense both in our domestic markets and our ability to sell 
our agricultural products abroad.
    At the end of the day, no one benefits from consumers 
thinking that America's food supply is not safe. All the work 
that we have done with consumer marketing, with FDA and USDA 
has been to be sure that the consumer is protected, and we do 
that through being sure that the packers and the canners and 
the processors, not the ones who produce it but the ones who 
prepare in many cases what has been produced by the farmer and 
between that farmer and the consumer, to be sure that chain 
that ties the fields to the table will be safe.
    It is not our job to protect the profits of the processors. 
It is our responsibility to protect the consuming public in 
America. And as a result of that, we see more and more 
agriculture products, consumable items, being imported into our 
country from other parts of the world. Could you give me a 
rough idea of about how much you think, what percentage of our 
food is imported from countries outside the U.S. that would be 
imported from either our continent or from Europe or from Asia 
or other parts of the world, compared with the food that we 
consume, in other words, what we produce and what we consume? 
Could you give me a rough estimate? Do you understand the 
question?
    Mr. Acheson. I do, yes. I can certainly get you a more 
accurate number, but I believe it is in the order of 15 percent 
the food that we consume is imported. It varies by commodity of 
food though.
    Mr. Davis. So you are saying 15 percent of the fruits and 
vegetables, canned items that would be canned, processed, or 
prepared in other parts of the world, that may be imported in 
the country as well as--are you saying only 15 percent is what 
we import?
    Mr. Acheson. I am saying on average total is 15 percent. 
Seafood, for example, is much higher. It is of the order of 70 
percent. Fresh produce will vary, depending on the commodity 
and depending on the time of year. If you want a specific 
breakdown of which foods, which percentage, I could provide 
that for you. But the 15 percent is across the board on 
average.
    Mr. Davis. If you could find an accurate percentage wise, I 
would love for you to send that to my office. Second question 
is this. Obviously in our country, we have done a pretty good 
job of inspecting, being sure that the foods we consume are 
healthy, protect us. We even list the nutrition of those on the 
label of what we consume, but we have no ability to be able to 
regulate any products, except through trade, I guess, that is 
imported into this country. And to me, I think that is an area 
we may be letting down just a little bit. What percentages of 
inspections on imported products of the workforce that we have, 
what percent of our workforce is put into inspecting imported 
products compared to those produced and processed here in 
America?
    Mr. Acheson. I can get--I have some colleagues with me who 
could probably provide you a more specific answer, but I 
believe it is approximately 50 percent, 50/50.
    Mr. Davis. It is 50/50 for the imported products compared 
to 50 percent of what we actually produce here in America?
    Mr. Acheson. It is of that order, and again I can provide 
you with a specific breakdown, but I would just say--can I--
will you allow me to just sort of----
    Mr. Davis. Yes.
    Mr. Acheson. --follow up a little bit? Certainly your 
question was suggesting that we have absolutely no control over 
the safety of foods that come from other countries, and I think 
that is a little bit of an overstatement in terms of the risks. 
We do. I mean that is what the inspectors are doing at the 
ports. If we find a problem, we can put out an import alert. 
That is what we have done with the rice protein concentrates 
and an example in the produce context would be cantaloupes that 
we imported where we had problems with salmonella. And we put 
an import alert out there to prevent the importation of 
potentially contaminated cantaloupes. So I want to, just for 
the record, point out that we do a lot to protect.
    Mr. Davis. There was obviously a huge failure back a few 
weeks ago when some products came into America that was tainted 
that we were not able to locate. So the point I am making is 
that in the--when it is processed in a foreign country and then 
shipped in this country, do we have inspectors that are 
inspecting the food that is going to be coming into America?
    Mr. Acheson. We do not have inspectors on a regular basis 
going to foreign manufacturers. If there is a problem and there 
is a need to get an inspector out there to look at the problem, 
we do and we have.
    Mr. Davis. In the area I am from, we have a lot of broiler 
processing, meat packing, not as much--very few in the area 
that I am from, but there is a certainly on-the-spot inspectors 
in virtually every processing plant that we have in this 
country. That was the point I was making to say here, we are 
there looking at what is being processed. In other countries, 
we are not, and I think that is an area where we may be 
failing. Thank you.
    Mr. Cardoza. Thank the gentleman from Tennessee, Mr. Davis, 
for your questions. We are now going to turn it over to my 
friend and colleague from California, Mr. McCarthy.
    Mr. McCarthy. Well, thank you, Mr. Chairman. I appreciate 
you having this hearing. I know the work you have done in this 
area. I had a line of questions, but I just am going to follow 
up really in what the chairman was asking earlier. First to 
Administrator Day. You said you have done 300 of those 
inspections, but you couldn't give a number of how many total 
plants there were. Would you consider that to be--could you 
give me a percentage of the 300, how many overall? Would it be 
10 percent with inspections? I mean how comfortable do you feel 
with that number?
    Mr. Day. Well, I can get you a total number. I don't know 
that it is even as high as 10 percent. We do inspect for 
anything that we are purchasing into the national school lunch 
program. All of those facilities are inspected, and they are 
going to be mandated to have GAPs and GHPs and all of that. And 
so that number is certainly growing, whether it is on the beef 
side or on the fruit and vegetable side. But I will have to 
submit for the record the actual percentage because I don't 
know that off the top of my head.
    Mr. McCarthy. Okay, and Doctor, if I could follow up. The 
chairman asked about how the E.coli outbreak occurred from the 
standpoint of how it came. And you said the answer from the 
standpoint--and I got--I guess I refer to the FDA and 
California Department of Health Services on March 23, their 
final report. They were unable to definitely determine how the 
bacteria spread onto the spinach. Were you able to eliminate 
any of the concerns or ways that it may have been spread on 
either of them?
    Mr. Acheson. No. As you point out, that report indicates a 
number of potential ways that it could have spread onto the 
spinach. We weren't there at the time. Obviously we were going 
in after the fact, and exactly how, you can't say one way or 
the other.
    Mr. McCarthy. So to me, this is the fundamental question as 
we move forward. One, how did it occur? And are there any ways 
that we find out that it didn't? What is the plan, or do you 
have one, to actually get to that answer?
    Mr. Acheson. There is a lot of research already going on 
with, as has been mentioned, the Western Institute, with the 
state of California as part of that, with the other research 
organizations to get at some of these fundamental questions.
    Mr. McCarthy. Do you think we will be able to answer that 
question?
    Mr. Acheson. We have to. I mean it may not be in the short 
term, but we have got to set up the fundamental systems to get 
at how do these bugs get into food in the first place. Because 
only by understanding that, what I would term microbial 
ecology, where are these bacteria living, how are they moving 
around, how are they getting from wild animals onto produce, 
from water onto produce, and what are the controls to prevent 
it? Can you ever hope to have a sophisticated preventative 
strategy that is going to work.
    Mr. McCarthy. I agree with you because that is the 
fundamental answer we need before we move forward on how to 
cure this. I mean what I see in California--I just came from 
the legislature there--and everybody is producing legislation 
without really knowing it is going to answer the problem and 
how do we get the trust of the people.
    Mr. Acheson. Exactly right.
    Mr. McCarthy. So from my question and your answer that is 
there, and prior with the chairman when it comes to research, 
what has been requested in the budget that can get you that 
answer and get the American people that answer? Earlier you 
requested it is not fundamental research, your agency. The 
chairman came back with all these different areas of where we 
do research. Knowing a lot of this had happened in California, 
coming from the area of UC Davis and others, have we requested 
the ability for the research and the technology, especially 
going forward, to answer the question?
    Mr. Acheson. Can I get back to you on the specific amount 
that we have requested for FY '08 for research because I----
    Mr. McCarthy. You can get back to me, but do you have a 
plan that is going to answer it?
    Mr. Acheson. I will have. Part of my mission in this job is 
to put food safety defense number 1, and come up with a 
strategic approach that is going to prevent if possible, 
intervene if necessary, and inspect to ensure prevention is 
working, and then respond. And frankly, I am not there yet with 
that plan. And, as I think I have said, building that research 
infrastructure, understanding those fundamental mechanisms of 
how bacteria are moving around, it is key to all of this. And 
it has got to be built into how do you make this work. We need 
to get away from reaction and focus on prevention.
    Mr. McCarthy. I agree with you there, and I guess I want to 
help you help us from the standpoint----
    Mr. Acheson. Right.
    Mr. McCarthy. --the Farm Bill is coming up, and we have a 
short window of opportunity here. And I think we can miss an 
opportunity of safety for America. If I could request of you to 
work with the subcommittee that we could come up with that plan 
because I think the American people ask that we answer that 
fundamental question of safety. And I think it all hinges in 
this whole hearing based upon did we answer how it got there. 
And if we can't answer that fundamental question, we really 
can't move forward.
    So if there is an ability that we all agree that it needs 
greater research and a plan to answer the fundamental question, 
I would like to be able to do that. And I would tell you that 
this committee is more than willing to work with you. And I 
know you have a big job, and you are just getting on the job. 
But if we could speed that up in a manner and bring people 
together, especially, in the long run we need to focus on the 
research. And knowing how large California is and how many 
producers in the West, if we could move there, I know the 
chairman would be very helpful. I yield back my time.
    Mr. Cardoza. I would like to thank the gentleman from 
California for both his questioning and his expertise in this 
issue. It is certainly something that concerns us in our home 
state, and we are going to have to get to the bottom of it, as 
you said. I am going to be turning it over to the gentleman 
from Georgia in just a moment. But I want to announce to the 
audience and to the members that I have got to present a bill 
on the floor in just a moment. I will be doing that. I will be 
turning it over, when he returns, to Mr. Etheridge to conduct 
the hearing, and then I will be returning as soon as the bill 
has been presented. Gentleman from Georgia.
    Mr. Barrow. Thank you, Mr. Chairman. Gentlemen, my areas of 
concern are probably going to be pitched more to Dr. Acheson 
than to Mr. Day, but I have some observations I would like Mr. 
Day to chime in on. But at the outset, Mr. Day, you referred in 
passing to the Georgia Fruits and Vegetables Association. Well, 
I have talked with those folks, and the context for my comments 
is going to be this background here.
    You know in my part of the country we probably have the 
most diverse agricultural portfolio of any place in the 
country. We may not produce as much of most things as they 
produce in some bigger states, but we produce as great a 
variety of anything as you can find anywhere in my part of the 
country. And the folks in my part of the country are under 
intense pressure from foreign imports, and one of the areas of 
concern they bring up with me is to make sure that we are 
trading and producing on a level playing field. So I want to 
follow on some of the questions that were suggested by the 
thorough cross examination of the gentleman from Tennessee, Mr. 
Davis, and just make a couple of observations as I focus in on 
this problem.
    Actually you may have been correct in pointing out that 
what we are consuming from imports may be only 15 percent of 
what we are consuming. But at the hearing of the subcommittee 
on specialty crops just last week, we established that insofar 
as the balance of trade in food is concerned we have become a 
net importer for the first time in this last year. And that 15 
percent you are talking about 50/50 in terms of how much we are 
exporting as opposed to how much we are importing.
    So of that 15 percent that is the trend that we are 
confronting. If you want to know where you are, you want to 
know where you are moving. You want to know where you have been 
and where things are moving. And we are moving toward importing 
more and more of our food. Now, I want to compare and contrast 
what I hear you saying we are doing in your area of 
responsibility with what I understand to be the case with 
respect to the USDA when it comes to meat inspection.
    When it comes to meat inspection, we have a proactive 
policy of protecting the American consumer by sending 
inspectors abroad to every processing plant that has any 
significant business with this country. We check it out before 
it gets on the boat, before it gets on the plane. We are 
inspecting to make sure that the processing facilities are up 
to our standards before it gets to the American marketplace.
    You compare and contrast that with what you describe we are 
doing with respect to the now majority of trade in produce 
where our policy is largely reactive. We are standing on the 
shore, and if we notice something dirty, either when it arrives 
on our shore or after the test population shows that there is 
something dirty in the stream of commerce, then we put out 
market alerts. Then we run the stuff down. We have a proactive 
policy versus an essentially reactive policy with respect to a 
share of our ag consumption that is growing every year, and 
that concerns me.
    With my part of the country with folks who are involved in 
the production of fruits and vegetables, we are highly 
regulated in a manner that we have accepted as the cost of 
doing business in this country. We regulate at the growing 
state, at the processing, with the chemicals and the pesticides 
that are applied, when it comes to harvesting, when it comes to 
processing. We make sure that the stuff is good enough for our 
marketplace so the net effect of this is we are doing a better 
job of protecting the foreign consumers of American produce 
then we are protecting American consumers of foreign produce. 
And that ain't cutting it. I don't think that is going to work 
for us.
    So what I want you to do is to tell me if I am off base on 
that, and then I want Mr. Day to chime in and say whether he 
thinks the time has come for your agency to start doing more of 
what his agency is doing. For us to get off of a reactive 
approach toward this and start becoming more proactive and 
policing the production side of things before it enters the 
stream of commerce.
    Now, I will let it go and let you guys have at it.
    Mr. Acheson. Thank you. First of all, let me say in support 
of what I said earlier, I completely agree with you. Reacting 
to a problem is not the way to deal with this.
    Mr. Barrow. Then what are we doing to change our policy 
from reaction to proaction?
    Mr. Acheson. We are developing a strategy to try to do 
exactly that.
    Mr. Barrow. When are we going to have a strategy and who is 
doing the developing?
    Mr. Acheson. I am. That is my responsibility.
    Mr. Barrow. When are we going to have something to look at?
    Mr. Acheson. As quickly as I can get it.
    Mr. Barrow. Any--bigger than a breadbox and smaller than 
the Empire State Building?
    Mr. Acheson. We will see. I mean you have raised a lot of 
important questions.
    Mr. Barrow. Well, I represent producers who are not playing 
on a level playing field and consumers who aren't getting 
protected from the stuff that is coming into our market.
    Mr. Acheson. Food safety is our mission at FDA. That is 
what we are all about. I mean you mentioned a lot of trade 
issues, but we are a public health agency. And our focus is on 
making sure that when consumers put food in their mouth, 
whether it is grown in your state or in a foreign country, it 
is safe. That is the key criteria. What do we need to get 
there, and what we need is preventative proactive approach. I 
agree with you. It is not there yet.
    Mr. Barrow. On the domestic front, that is our policy. We 
are doing it indirectly by regulating virtually every aspect of 
production. Mr. Day, do you have any insight as to whether or 
not I am barking up the right tree on this? Should we become 
more proactive with respect to the inspection on the foreign 
side of the ocean with respect to imports that are heading our 
way?
    Mr. Day. Well, I think you raised some very important 
points, Congressman. On the food safety inspection service 
side, which, you know, regulates meat and eggs, you are 
absolutely correct. They go out. Their international services 
division goes out to every country that is exporting beef to 
this country, and they inspect to the standards established by 
FSIS as HACCP standards.
    And so the rest of the world knows exactly what they have 
to adhere to, and they go out, and they inspect--they don't 
inspect every single plant. I think eventually they do, but 
they inspect a sampling of enough plants to give confidence in 
that system so that we can have that bilateral confidence in 
the system.
    On the fruit and vegetable side, it is a little more 
difficult. I think what industry is looking for is a federal 
solution that requires good ag practices, good handling 
practices that would cover both domestic and imported product. 
You know I have been in the trade side of things at USDA for a 
number of years before coming over to the Agricultural 
Marketing Services, and I remember a foreign trading partner 
complaining about not being able to export into the United 
States because we held them to a standard that we didn't hold 
our own domestic folks to. And I think what you are describing 
is exactly the opposite.
    Mr. Barrow. Yes, exactly.
    Mr. Day. And I think what industry is looking for and I 
think what everyone is looking for at the end of the day when 
Dr. Acheson finishes his Empire State Building is that we have 
something that covers all food, both domestic and imported.
    Mr. Barrow. Thank you.
    Mr. Etheridge. [Presiding] The gentleman's time has 
expired. The gentleman from New York, Mr. Kuhl.
    Mr. Kuhl. Thank you, Mr. Etheridge, and it is nice, as a 
Congressman from New York, to recognize that you recognize the 
importance of New York state to this whole process of 
prevention in building a system actually that will prevent what 
we all know is happening in California. But anyway, aside, I 
had another subcommittee hearing, and I didn't have the benefit 
of being able to sit through your testimony and haven't had a 
chance to read it either.
    So at this point, Mr. Chairman, I would like to return my 5 
minutes over to and yield to Mr. Neugebauer because I know he 
has some additional questions.
    Mr. Neugebauer. And I thank the gentleman. I want to go 
back to, I think my colleague from Texas was talking about 
making sure that we do this on a risk-based analysis, and I 
think that is certainly the road we need to go down because we, 
you know, a shotgun approach, we do not have the resources to 
do. So we need to analyze where the greatest risk is, but let 
us talk about what that risk is right now.
    In a percentage of the total food supply that goes through 
the U.S. system today, the contamination percentage, I mean 
what percentage good are we? Are we 99 percent? Are we 98? Are 
we 90, 80? When you look at the number, what number would you 
tell the American people today? Can you say 99 percent sure 
this is good, uncontaminated number? What is that number? I 
don't want to put any words in anybody's mouth? Mr. Day, you 
want to take a crack at that?
    Mr. Day. I think I will just let Dr. Acheson handle that.
    Mr. Neugebauer. It is nice to have friends like you.
    Mr. Day. I am not a food safety agency.
    Mr. Acheson. Thank you. That is an excellent question. Is 
there a specific number? Obviously no, but if you think of it 
in the context of the degree of safety, of the billions of 
servings of food that are consumed in the United States every 
day by everyone of us in this room, three times a day. And the 
chairman explained how he had a foodborne illness recently, 
linked to the peanut butter.
    Just ask yourself how many meals have I eaten in the last 
year, and how many times have they made me sick? You are 99.9 
something, something, something, but it is not where we want to 
be. We want to be close to 100 percent. We will never reach 100 
percent. Let us not be unrealistic here. You are never going to 
be able to grow fresh produce in an open field in an open 
environment and guarantee 100 percent it is never going to have 
bugs on it that could make you sick. You need to keep pushing 
those frontiers back. So we are in great shape, but the goal is 
to make it better.
    Mr. Neugebauer. Well, and I don't disagree, and I think 
particularly this is--one of the former colleagues were talking 
about, when we were talking about importation, and it is at 15 
percent and depending on what happens in years to come, that 
percentage may grow. I think food safety also becomes a 
national security issue, making sure that we know that the food 
we are importing is safe for Americans as well as the food that 
we produce domestically.
    We probably have more control over the domestic side of it 
than we do the imported side, and I think as we move forward, 
when we look at what your risk-base analysis is, I think you 
probably heard most of this panel say, and you were here last 
week I believe, and we talked about looking at how we are 
moving forward both at USDA and at FDA, making sure that the 
countries that we are buying or importing those foods from are 
following some of these same standards. With that in mind, I 
guess one of the questions I wanted to have is you all 
determining some of these updated best practices. How much 
industry involvement is going on in working with the industry 
in doing the research? Is there a collaborative environment in 
developing those?
    Mr. Acheson. If I can respond to that first, I would say 
absolutely. I think there is a strong collaborative 
environment. Industry has a lot of expertise that we need to 
listen to and focus on and continue to work closely with them. 
We work with industry in the development of many of the 
guidelines and guidance documents that we have produced. So it 
is key, and I believe that there is a strong relationship with 
industry in these areas.
    Mr. Day. And I would echo the collaboration with industry 
that has been immense in recent months, especially after the 
outbreak of E.coli in spinach. You saw the leadership of the 
state of California and the California industry out there to 
develop the California Leafy Greens Marketing Agreement.
    In the area of research to help out FDA and Dr. Acheson and 
give a plug for the secretary's Farm Bill proposals. We have 
proposed a billion dollars of research to be devoted to 
specialty crops, and perhaps as you review the Farm Bill, you 
might want to look at tailoring some of that toward the 
fundamental food safety questions that have been raised in this 
committee.
    Mr. Neugebauer. Well, that was my next question. You say it 
is moving forward. How do you propose to move some of that 
research money to fruit and vegetable?
    Mr. Day. Well, we are certainly proposing that we increase 
the amount of research dollars spent on fruits and vegetables 
by a billion dollars in the next Farm Bill.
    Mr. Neugebauer. Okay, thank you.
    Mr. Etheridge. The gentleman's time has expired. Thank you. 
Let me thank both of our witnesses. Thank you for your time, 
for being here this morning, and we thank you for coming. And 
we now will welcome the second panel to the table. Thank you, 
gentlemen.
    Mr. Day. Thank you, sir.
    Mr. Etheridge. Let me thank our panelists. I will, in the 
absence of the chairman, say to you that your full statement 
will be entered into the record. And we would ask each of you, 
after I have introduced you, to try to summarize it within 5 
minutes. And we will begin with Dr. Robert Whitaker, Vice 
President of processing and technology for New Star Fresh Foods 
out of California. Our second panelist is Mr. Joe Pezzini.
    Mr. Pezzini. Pezzini.
    Mr. Etheridge. Pezzini, thank you. Vice President of 
operations for Ocean Mist Farms in California on behalf of the 
Western Growers Association. Dr. Martha Roberts, Personal 
Assistant to the Director of Florida Experimental Stations on 
behalf of the Florida Tomato Exchange in Florida. And Ms. Lorna 
Christie, Vice President of Produce Marketing Association in 
Delaware, and finally Ms. Caroline Smith DeWaal, Director of 
Food Safety, Center for Science in the Public Interest in 
Washington, D.C. Dr. Whitaker, please begin when you are ready.

  STATEMENT OF DR. ROBERT J. WHITAKER, PH.D., VICE PRESIDENT, 
PROCESSING AND TECHNOLOGY, NEWSTAR FRESH FOODS, LLC, ON BEHALF 
              OF UNITED FRESH PRODUCE ASSOCIATION

    Mr. Whitaker. Good morning, Mr. Etheridge and members of 
the committee. My name is Dr. Robert Whitaker, and I am vice 
president of processing technology for New Star Fresh Food, and 
fresh and fresh-cut vegetable company based in Salinas, 
California. Our company produces a variety of conventional and 
organic spinach, spring mix, and blended baby leaf salads and 
specialties for food distributors, retailers, and private label 
products for a number of retail customers.
    I am also past chairman of the United Fresh Produce 
Association and provide comments here today on behalf of our 
association as well as myself. Our association is lead by a 
board of directors representing leaders from every sector of 
the industry, a 50-member food safety and technology counsel 
including scientific experts from our member companies and a 
staff with expertise in food microbiology, plant sciences and 
nutrition and health. I want to compliment the committee today 
for holding a very timely hearing, giving the ongoing focus on 
food safety across the produce industry.
    Due to the food safety issues across our country the last 
few years and especially the last 9 months since the spinach 
crisis have been at times frustrating and confusing but 
simultaneously an encouraging and exhilarating period of change 
and reflection for the produce industry. As we have heard 
today, we have been through a food safety crisis that has 
caused death and illness, eroded consumer confidence in our 
products, cost our industry millions of dollars in product and 
opportunities lost, and precipitated an avalanche of attention 
and keen focus on produce food safety by the media, consumers, 
customers, growers, and processors.
    I have been asked to speak today about how our industry has 
changed with regard to food safety, and what changes still need 
to be made in the near term and where we go from here. So today 
we find ourselves, as an industry, truly engaged with a wide 
array of very positive activities and initiatives to improve 
the food safety of our products.
    And these include a true awareness and sensitivity to food 
safety has permeated the industry at every level from grower to 
harvester to processor, shipper, and customer. The buying 
community has begun to ask more questions about the suppliers' 
food safety programs. General good agricultural practices, or 
GAPS, have morphed into commodity specific guidance for 
tomatoes, melons, and leafy greens. The process of developing 
commodity specific guidance for melons and tomatoes and GAP 
metrics in California for leafy greens has brought about 
several very important revelations for our industry.
    There is a general lack of sound scientific data we can use 
to guide the development of certain food safety best practices, 
including water management, compost usage, buffer zones for 
wild and domesticated animals. Absent sound science, we have 
had to use what data is available to us and our very best 
profession judgment to promulgate risk management strategies 
and metrics aimed towards improving our industry's food safety 
performance.
    On a positive note, we have shown that our industry can 
come together to share food safety information and 
cooperatively developed improved practices for food safety. The 
associations represented before the committee today, as well as 
others, have served as a fulcrum to organize productive 
discussions and hammer out decisions. This is an encouraging 
sign for our industry as we move forward.
    So we have seen a great deal of change over the last 
several months with regard to food safety, but have we solved 
the problem? I would suggest we are only in the first stages of 
a culture change that our industry must go through with regard 
to food safety. It is one thing to hold meeting to develop 
improved practices, to testify before Congress, share our 
collective experience in food safety and hold town hall 
meetings on food safety in the production community. But we 
must change our culture and place food safety as a national 
priority.
    As an industry, we must live our food safety programs every 
day. We have to make GAP and GAP metrics more than just nice 
notebooks of information on our office bookshelves. As a 
nation, we need your help in driving scientific research to 
help prevent future outbreaks. Many of our associations and 
individual companies are stepping up to fund research, and that 
is commendable.
    Honestly, in order to reach the critical funding levels, we 
must have government help. We have proposed a $26.5 million 
annual research package devoted to produce safety research, a 
small price to help prevent contamination and restore public 
confidence in produce that is critical for them to consume and 
better for their health.
    Specific produce safety research that is field oriented and 
implemented to find practical solutions is critically 
important, and we urge the committee to devote specific funding 
to this objective in the Farm Bill and to support the 
appropriators in their efforts.
    The single biggest change we can make in our industry to 
stimulate the food safety culture change we need is for the 
buying committee to recognize and only purchase from those 
suppliers that have a keen focus on food safety, have 
implemented GAPS, embraced the GAP metrics, and placed sound 
risk management principles and science-based decision making to 
operate their business daily and who continue to push the 
boundaries to make their products safer.
    This requires knowing our suppliers, understanding their 
food safety programs, and separating out those who talk about 
food safety from those who do food safety every day. I get 
tired of customers who call and request our food safety 
certificate. I am not sure what that is. Food safety programs 
are not gold-embroidered certificates that guarantee safety and 
received, can be filed away. They are multi-layered risk 
management strategies, verification procedures and people 
devoted to making the safest product possible. Buyers who do 
not know these details about their suppliers' food safety 
practices are not doing their part in the food safety 
continuum.
    By the way, processors who don't know these facts about 
their growers are also needing to step up to this 
responsibility.
    The last area I was asked to comment on was to suggest what 
lies ahead for industry in relation to food safety. I have no 
magic crystal ball, but I can say that food safety will 
continue to be the leading priority for industry as we fight to 
rebuild consumer confidence in our products, improve our 
relationships with regulators, and create constructive dialogue 
and food safety partnerships with our customers.
    More specifically, we will learn a great deal in the coming 
months from the finalization and implementation of the leafy 
greens market agreement and the GAP metrics they are based on. 
We will likely also see a coalescing of food safety programs to 
drive consistency and uniformity across our industry, working 
closely with industry groups representing multiple regions in 
the United States as well as importing countries, the FDA, 
USDA, and the Association of Food and Drug officials to help 
develop a consistent regulatory approach for produce food 
safety.
    No matter how hard our industry works, public confidence 
ultimately depends upon government as the final health and 
regulatory authority to determine proper food safeties----
    Mr. Etheridge. We are going to need for you to wrap it up 
pretty quick please.
    Mr. Whitaker. Okay, I will just--there are three key 
principles that we would like to drive home. We believe that 
produce food safety standards must be consistent for an 
individual produce commodity grown anywhere in the United 
States, and consumers must have confidence that the safety 
standards are the same no matter where the product was 
produced. We also believe that achieving consistent produce 
safety standards will require federal government oversight and 
responsibility. And we believe the FDA must determine 
appropriate nationwide safety standards. And lastly, we believe 
produce safety standards must allow for commodity-specific food 
safety practices based on the best available science. It is a 
highly diverse industry that is more aptly described as 
hundreds of different small industries wrapped up into one, and 
clearly one size won't fit all.
    Over time, I believe the industry will be able to employ 
science-based approaches that are just now being developed to 
minimize risk. Research that is just now in the formative 
stages will be brought forward over the next 3 to 4 years. And 
as we begin to understand how pathogens attach themselves to 
produce, we can develop new sanitation strategies to more 
effectively remove----
    Mr. Etheridge. Thank you.
    Mr. Whitaker. --pathogens.
    Mr. Etheridge. Thank you. Let me remind each of you. Your 
full statement will be included in the record. Please try to 
keep it to 5 minutes so the members will have time to ask 
questions. Otherwise, you will consume all the time. We will 
get no time to ask questions. Thank you.

  STATEMENT OF MR. JOE PEZZINI, VICE PRESIDENT OF OPERATIONS, 
   OCEAN MIST FARMS, ON BEHALF OF WESTERN GROWERS ASSOCIATION

    Mr. Pezzini. Good morning, Congressman Etheridge. My name 
is Joe Pezzini. I am the vice president of operations for Ocean 
Mist Farms. Ocean Mist Farms is a family-owned company based in 
Castroville, California that has been producing vegetables 
since 1924. We are committed to both the art and science of 
agriculture and have invested heavily in our plant breading, 
growing, harvesting, cooling, and shipping operations which are 
all state of the art.
    I am very proud to be able to say that Ocean Mist Farms has 
never had an outbreak of foodborne illnesses associated with 
any of our products. I am also testifying on behalf of the 
Western Growers Association.
    But no company can take food safety for granted, and when 
an outbreak does occur, it impacts industry as a whole and we 
all suffer. It is incumbent upon us as an industry to do all we 
can to prevent these outbreaks and to ensure that our products 
are safe, every bite, every time. That, I believe, is the focus 
of today's hearing, and I want to thank you for allowing me to 
provide my thoughts on how the industry and government can 
collaborate to prevent future outbreaks in fresh produce. In my 
capacity as chairman of the newly created California Leafy 
Greens Marketing Agreement, I believe we are raising the bar 
for food safety in these commodities and that elements of this 
novel program can provide direction and guidance as we begin to 
develop approaches for improving food safety throughout the 
country.
    In essence, a marketing agreement is a legal agreement that 
binds signatories to a common purpose. In the case of 
California Leafy Greens Marketing Agreement, that purpose is to 
certify the safe growing, handling, and shipping of leafy green 
products to consumers. This purpose is carried out by the 
industry first by developing an agreement on baseline good 
agricultural practices. Second, contracting with government to 
verify that these baseline practices are being met. And third, 
communicating to buyers that the products have met the 
requirements of the agreement. All of this is implemented under 
the penalty of law using industry funding.
    This collaborative partnership on the part of industry and 
government, while in its infancy, has three key elements that 
may be instructed for how to move forward on a national level. 
The first element is that industry in partnership with academic 
community is best positioned to develop the best food safety 
practices.
    The body of knowledge and science behind food safety and 
the practices that may be utilized to reduce risk in produce 
operations is changing rapidly. The industry and academic 
communities are partnering to advance the understanding of risk 
in pathways of contamination in production, harvesting, and 
processing operations. We are working to fill concurrent gaps 
in the understanding of the development of new tools to analyze 
risk, detect pathogens, and prevent contamination. This is best 
facilitated by the industry. It can revise their practices and 
requirements quickly and effectively, if not bound by 
government constraints inherent in the development of 
regulation. Today in California, over $4 million in industry 
funding has been committed to new research and education.
    A second element is government should play a key role in 
ensuring that industry is indeed walking the talk. While 
industry and academia should take the lead on developing 
practices and processes to prevent contamination, the 
government can and should play a fundamental role in verifying 
that the industry is indeed implementing the best practices 
throughout the supply chain.
    The solution as we have implemented in the Leafy Greens 
Marketing Agreement in California is to have USDA-trained 
inspectors employed by the government do the audits. It is my 
opinion that without direct oversight of our industry by 
government, we will do little to rebuild and restore confidence 
of our industry and practices.
    And the third element is that industry and government 
should collaborate to enforce compliance and facilitate 
recognition in the marketplace. The Leafy Greens Marketing 
Agreement in California currently allows handlers to sign up 
voluntarily. While we have had great success, and the current 
signatories represent almost 100 percent of the leafy greens 
produced and sold from California, we still have a few handlers 
that have not yet signed the agreement.
    To address the situation, we are researching the formation 
of a marketing order for handlers to ensure that all 
commercially handled leafy greens are included in the 
California system. Compliance with the program will be 
communicated in the marketplace using a mandatory service mark, 
which will be placed on sales documents.
    In addition, we will allow for use of a certification mark, 
which will be placed on packaging, including those offered at 
the consumer level. The marks would allow suppliers to 
communicate that their products and practices have been 
verified by government auditors to have met the requirements of 
the marketing agreement.
    To conclude, the Leafy Greens Marketing Agreement of 
California is a model for how we can address food safety on a 
national level, which we must move toward. It can serve as a 
template for other commodities and producer groups to pursue. 
The marketing agreement meshes well within the goals and 
objectives of the 2004 Produce Safety Action Plan issued by the 
FDA. In California, we have chosen to pursue this path with 
handlers as they account for all major commercial production 
and sales of leafy greens. In Arizona, handlers are currently 
pursuing the same tact, but not every state has the authority 
for marketing agreements or orders.
    The leafy greens producers in California and Arizona, which 
constitutes more than 90 percent of the U.S. crop would like to 
pursue this same pathway on a national focus. We would strongly 
recommend that this committee consideration legislation to 
allow for handler-based marketing agreements and orders at a 
national level.
    While we are proud of our food safety record, we remain 
resolute in our commitment to do everything feasible to prevent 
contamination. We look forward to working closely with this 
subcommittee to ensure that we are empowered to make certain we 
deliver products that are safe, every bite, every time.
    Thank you, Congressman Etheridge and the subcommittee.
    Mr. Etheridge. Thank you, sir. And Dr. Roberts.

 STATEMENT OF DR. MARTHA ROBERTS, PH.D., PERSONAL ASSISTANT TO 
    THE DIRECTOR, FLORIDA EXPERIMENT STATION, UNIVERSITY OF 
       FLORIDA, ON BEHALF OF THE FLORIDA TOMATOR EXCHANGE

    Ms. Roberts. Thank you, Mr. Etheridge and members of the 
committee. I am Martha Roberts with the University of Florida, 
and I am here representing Reggie Brown with the Florida Tomato 
Exchange who is out of the country today. I have been involved 
in food regulatory programs, food safety programs for about 35 
years, and I am here representing the fresh tomato industry of 
Florida, which provides 45 to 50 percent of all the fresh 
tomatoes in the domestic market to American consumers.
    The Florida industry actively responded on several fronts 
after they received a letter from the Food and Drug 
Administration in 2004 that was directed to the lettuce 
industry and to the tomato industry, expressing FDA's concerns 
on food safety. Not only did Florida work to respond, but the 
Florida Tomato Exchange also worked with other tomato groups 
throughout North America as a member of the North American 
Tomato Trade Working Group, or NATTWG, which also includes the 
U.S., Canada, and Mexico.
    Currently, we are working with the food safety division of 
the Florida Department of Agriculture and Consumer Services, 
which is the regulatory agency in Florida responsible for food 
safety. To establish a mandatory program of food safety for 
tomatoes in Florida, the Florida state legislature has passed a 
bill mandating a food safety program, and it is on the 
governor's desk for signature at this moment. The mandatory 
regulatory program will be the first of its kind in the 
country, and the regulations are being drawn up from a number 
of guidelines, including the ones you have heard of today, the 
FDA 1998 Guideline on Preventing and Minimizing Microbial Food 
Safety Hazards for Fruits and Vegetables, and also the 2006 
NATTWG commodity-specific food safety guidelines for tomatoes.
    To accomplish this, the Florida industry has worked very 
cooperatively with FDA and with USDA and the state department 
of agriculture and other members across the country to actively 
explore and aggressively proceed in our efforts to establish 
science-based regulation. The main goal is to prevent foodborne 
illness. Addressing this issue through science-based sound 
regulation allows for collaborative efforts to maintain public 
confidence, which is so critical.
    Every segment of the supply chain must evaluate their 
specific risk factors and the necessary policies and procedures 
to mitigate these, and this is what we are working toward with 
all segments of the industry, from packing, handling production 
to ensure that virtually all of the tomatoes currently pose no 
risk to human health. The focus needs to be on the relatively 
rare exceptions when microbial contamination occurs. And most 
importantly, as you have pointed out, Mr. Etheridge, we need 
the science. We need the research on which to base these 
decisions. So the establishment of uniform, science-based risk 
evaluations and mitigation procedures throughout the entire 
food chain is essential to providing the safest food supply 
system possible.
    Nationally mandated and monitored regulations present the 
best opportunity for accomplishing the goal of overall risk 
reduction, but such a program must be based on commodity-
specific systems that implement risk-reducing processes and 
that address legitimate, science-based food safety concerns.
    The industry in both Florida and California has begun these 
efforts to develop functional good ag practices and Best 
Management Practices, and we are working together very strongly 
to ensure that these are uniform from coast to coast. Mandatory 
trace back capability is also a very key important part of this 
system and positive lot identification throughout the system 
that minimizes commingling as a part of the Florida program.
    Mandatory compliance to the good ag practices and BMPs 
throughout a national program of regulation and regulatory 
oversight can significantly enhance the risk reduction 
provided. The risk for fresh tomatoes will not go to zero 
however. With current technology, significant reductions can be 
achieved. Direct farm marketing of small quantities doesn't 
pose a risk as such to the public health and should be 
carefully exempted.
    We are very pleased that we were able to provide a tomato 
forum that was sponsored by the University of Florida and the 
Florida tomato industry in November of 2006, and we brought 
together seven eastern states, including your state of North 
Carolina to ensure that we had commissioners of agriculture, 
commissioners of health, all of the universities, all of the 
industry working together with FDA and USDA to ensure that 
these factors were considered.
    Also, as you had mentioned earlier, we cooperated with the 
Joint Institute of Food Safety and Applied Nutrition to have a 
research priority setting workshop, and we would offer to you, 
for the record, a list of the priority research areas that were 
identified for tomato food safety.
    In summary, the Florida tomato industry, along with other 
tomato groups such as the California tomato farmers, are 
proceeding on a path to improve the overall food safety 
environment for tomatoes. This can be accomplished with good 
science, common sense and cooperation of government and 
industry.
    We are very delighted that you are having this hearing and 
that the federal government is proceeding, but at the moment, 
federal regulations take time, and Florida is not waiting for 
these to develop but are actively enhancing the food safety of 
the tomatoes we produce by going forward with the mandatory 
program until the federal program is in place.
    Mr. Etheridge. Thank you, Dr. Roberts. Ms. Christie for 5 
minutes.

   STATEMENT OF MS. LORNA CHRISTIE, VICE PRESIDENT, PRODUCE 
                     MARKETING ASSOCIATION

    Ms. Christie. Thank you for the opportunity to be here 
today. We certainly commend you for holding this hearing to 
address produce safety. I represent the Produce Marketing 
Association, the largest association representing the fresh 
produce industry from growers and processors to wholesalers and 
distributors to supermarkets and restaurants.
    The industry's commitment to food safety did not begin on 
September 14, 2006. It actually started generations ago with 
American farmers whose traditions of excellence really formed 
the very foundation of today's very sophisticated and global 
industry. The growth and complex nature of the produce supply 
chain demands that we approach food safety as a continuum and 
also as a collective responsibility. With that in mind, 
industry has spent tens of millions of dollars on the best 
scientific knowledge available to protect our products and our 
customers.
    We also know that the consumer confidence in our products 
is very fragile. We never have and we never will take that 
responsibility for granted. Doing so would be irresponsible to 
the public and harmful to our very own livelihoods. We have a 
vested interest in providing consumers with safe and healthy 
produce, as Mr. Pezzini has said, every bite every time.
    With that in mind, we helped develop the industry precursor 
to the good agricultural practices. We constantly are offering 
training and education so our members can develop robust food 
safety programs based on the best science available at this 
time. We collaborate with federal agencies and participate in 
industry coalitions to address produce safety.
    In working with the Canadian Produce Marketing Association, 
we developed information technology practices that facilitate 
more rapid tracebacks. We are committed to doing whatever it 
takes to protect public health and rebuild consumer confidence. 
I know you share that goal, a goal that is essential in the 
fight to improve the nutritional health of America's consumers.
    I would like to highlight some of the activities that PMA 
has been involved in on behalf of our members over the past 
several months. We have committed $2.75 million in additional 
resources to food safety. The chairman mentioned how important 
research is. We could not agree more. So we have launched the 
Center for Produce Safety at the University of California under 
the umbrella of the Western Institute for Food Safety and 
Security. It will coordinate fund and disseminate produce 
safety research by bringing together experts from industry, 
government, and academia to find out how to stop product 
contamination. We have committed $2 million initially to help 
launch the center. These funds have already been matched by one 
industry company, and we expect more to follow.
    California has committed an additional half a million 
dollars. Please look closely at these commitments from the 
industry, the state, and the university and help us support the 
need for more research. We have committed funds for enhanced 
education and training as well, for all parts of the supply 
chain, including $200,000 to be used in training growers on 
good agricultural practices.
    And we, of course, applaud the work of other organizations, 
including the successful effort to establish a California 
Lettuce and Leafy Greens Marketing Agreement. In addition to 
the efforts I have outlined, we offer the following 
recommendations to address fresh produce safety. Efforts must 
be prioritized on risk, focusing on those commodities most 
likely to be associated with foodborne illness outbreaks. We 
need a strong Farm Bill that addresses the interests of the 
produce industry, including food safety research and technical 
assistance for companies that need it to maximize their food 
safety capabilities.
    The actions Congress takes on the farm bill will have 
direct implications for fresh produce safety. We all need to be 
specific in our language. When we are talking about risk, there 
are only a few commodities identified as more likely to be 
associated with food safety outbreaks. Consumer communication 
should be specific about products and questions and not portray 
all produce as risky. Hundreds of commodities have never been 
associated with a food safety outbreak.
    We need a robust, Federal, commodity-specific safety effort 
that is verifiable and applies to all products grown in the 
U.S. and abroad. This effort must be based on sound science and 
prioritized again by risk. And we, of course, look forward to 
partnering with Federal or state authorities to better define 
the traceability needs and those that are not being currently 
met by industry practices.
    Our first goal, however, is the public health, which is the 
foundation of all of our efforts, our food safety efforts of 
the past 20 years, our focus on consumer education and 
confidence, our commitment of resources to this issue, and our 
collaboration with everyone who can advance produce safety. It 
is our livelihood. It is also our moral obligation.
    Again, I thank you for the opportunity to speak here today, 
and, of course, I am happy to answer any questions you may 
have.
    Mr. Etheridge. Thank you, Ms. Christie. Ms. DeWaal.

   STATEMENT OF MS. CAROLINE SMITH DeWAAL, DIRECTOR OF FOOD 
       SAFETY, CENTER FOR SCIENCE IN THE PUBLIC INTEREST

    Ms. DeWaal. Thank you so much. I am director of food safety 
for the Center for Science in the Public Interest, a non-profit 
health advocacy and education organization, focused on food 
safety and nutrition. We represent over 900,000 consumers in 
the U.S. and Canada and accept no government or industry 
funding.
    The Centers for Disease Control and Prevention estimates 
that 76 million Americans get sick and 5,000 die each year from 
foodborne hazards in the United States. According to CSPI's own 
database, which spans 15 years, fruits and vegetables and 
dishes made out of those products cause 13 percent of foodborne 
illness outbreaks and nearly 1 out of every 5 illnesses 
associated with those outbreaks.
    A series of produce outbreaks last fall provided a wake-up 
call for the public about the critical state of produce safety. 
Following the spinach outbreak that sickened 205 people and 
killed at least 3, tomatoes and lettuce were both implicated in 
outbreaks sickening hundreds before year's end.
    While the produce outbreaks of the fall 2006 have created 
this call for more action, large-scale produce outbreaks are 
not a new phenomenon in this country. Outbreaks from produce, 
both imported and domestic, have resulted in deaths, both 
severe and mild illnesses, and great market disruptions over 
the last 10 years. Domestic produce is largely unregulated, and 
FDA has done little more than coax, request, or warn producers 
to improve the safety of their products.
    Imported produce, however, has even less oversight, and 
these products are also associated with a long history of 
outbreaks. In my written testimony, I have discussed imported 
raspberries, which sickened thousands of consumers, 
strawberries in a school lunch program that resulted in 
hundreds of illnesses in school children, cantaloupes from 
Mexico also, outbreaks that continue for 3 years, as well as a 
very severe outbreak from Hepatitis A in raw onions, resulting 
in over 500 illnesses and 3 deaths in 2003.
    Fresh fruits and vegetables are at the center of a healthy 
diet, so it is critical that immediate steps are taken to 
improve their safety. CSPI has petitioned the FDA to take 
action to require that all fruit and vegetable producers and 
processors develop written plans to identify where 
contamination is likely to occur and how to prevent it. These 
plans should apply first to high-risk products, such as leafy 
green vegetables.
    Specifically, CSPI proposes a three-prong approach. First, 
FDA should require all growers and processors to keep written 
food plans, which are designed by the farmer to address the 
specific environmental conditions on the farm.
    Second, FDA should develop standardized criteria for use by 
the farmers for such items as water quality, manure use and 
management, and worker sanitation.
    Finally, the written plan should be audited at least once 
per growing season by FDA, the states, or the buyers of these 
products. And FDA should review these audits.
    The produce industry is not waiting for the FDA to take 
action and is moving forward in many important places with the 
states of California, Florida, the Association of Food and Drug 
Officials and others to develop specific and general standards 
for different commodities. These standards can ultimately 
provide a basis for FDA to take stronger regulatory action.
    However, a big part of this problem lies with FDA itself. 
Last fall's produce outbreaks are just the latest symptom of an 
agency that is overwhelmed by responsibility but lacks the 
staff and resources to function effectively. Between 2003 and 
2006, there was a 47 percent drop in Federal inspections, and 
FDA's current food program is facing a shortfall of 
approximately $135 million. A Harris poll has documented the 
result of this. Consumers have actually lost confidence in FDA. 
It has dropped from around 60 percent confidence level in the 
agency to 35 percent since 2000. This is a true and precipitous 
decline in consumer confidence.
    In summary, to ensure safety and restore consumer 
confidence, prevention, early detection and control measures 
must be in place at every step of fresh produce production to 
help minimize food safety risks. Voluntary guidelines have not 
been effective to prevent the food safety problems related to 
fruits and vegetables. Congress should take this step to 
mandate the food safety oversight should be in place all the 
way from the farm to the table. Thank you.
    Mr. Cardoza. Thank you, Ms. DeWaal. Appreciate very much 
you being here with us today. And thanks to all the members of 
the panel. I am sorry I was not present for all of your 
testimony, but I can assure you that I read it all last night 
that was submitted to us. And I will also review the record of 
today's testimony so that we can be fully apprised of 
everything that you said.
    I want to start out by asking a question of Dr. Whitaker. 
Regarding the critical research questions of the day, who 
should conduct this research? How much should it cost, and what 
will the industry do to provide their part of this research?
    Mr. Whitaker. I think that there is a consortium of people 
who are capable of conducting this research. I think much of it 
can be done in academia. There has been a number of research 
proposals that have been put forward this year through the USDA 
CSREES program that specifically address some of the food 
safety issues that we have talked to today. So I would say it 
is a partnership between academia and the industry.
    As was indicated in one of my panelists here, there have 
been a number of different people within the industry who have 
also stepped up and put funds together. The produce marketing 
association in conjunction with several of the processors in 
our industry have put money to form a fund for research on 
produce food safety that will ultimately go a long ways to 
helping us get very practical, hands-on field level type of 
research, which I think is important as we go forward.
    As far as to the level of funding, it is way beyond my 
purview to be to guess what exactly that is going to cost as we 
go forward. However, I can't think of anything else we could 
spend our money on that would be--is less important because 
certainly the safety of our food is important to all of us, 
both from a consumer as well as on up through the processors.
    Mr. Cardoza. Thank you. Ms. DeWaal, in the testimony that 
you submitted to the committee, which I assume you presented 
today before I got here back from the floor, you mentioned in 
your written testimony that 76 million Americans have gotten 
sick, 325,000 are hospitalized, and 5,000 die each year from 
foodborne hazards.
    Now, while I think that this problem is serious, I am not 
so sure that numbers aren't misleading about the problem we are 
speaking about today because frankly some of those problems are 
caused by the mishandling in the home, mishandling in 
institutions and restaurants. Those aren't farmers' problems. 
Those are problems that may be documentable that people get 
sick by the food they consume, but it isn't all the leafy green 
vegetables from the Salinas Valley that are causing those 
problems.
    So I want to make sure that while we are very responsible 
in this committee and in this Congress about dealing with the 
hazards that can be presented to the American public that the 
farmers that grow the best, safest, and healthiest fruits and 
vegetables in the world aren't maligned. And so I would like 
you to speak to that question please.
    Ms. DeWaal. Thank you, Mr. Chairman. I think that is a very 
important question. First of all, 76 million cases of illness a 
year is too many. It is really 1 in 4 people each year may get 
sick, and I think you would be surprised, as we were, to see, 
as we look at outbreak data, which is a very small portion of 
this total pool of illnesses, there is a very large 
contribution. I mentioned 13 percent of outbreaks are caused by 
fruits and vegetables, and within these outbreaks, we have also 
noticed that the number of people who get sick is quite large 
per outbreak, about averaging around 45 to 50 persons per 
outbreak versus about 20 to 30 for meat and poultry.
    The reason for that is probably because the outbreaks 
aren't recognized earlier. They may be looking for E.coli in 
the hamburgers rather than in the lettuce. But the bottom line 
is that while it is probably a small proportion of the 
illnesses, it is still a very significant proportion. And I am 
sure the farmers don't want to see it as a growing proportion.
    One other comment though. Consumers support farmers. There 
is absolutely no question that we want our food grown in the 
natural way on the farm, and that is not a question. The 
question is simply are there things farmers can be doing 
better, and I think the ones that have talked today would say 
there are, that would actually help to reduce these numbers. 
Thank you.
    Mr. Cardoza. Thank you, Ms. DeWaal. I am going to go for a 
couple rounds of questions, but I know Mr. Etheridge may have 
to retire from the committee on a very temporary basis. But I 
am going to turn it over to him for 5 minutes of questioning at 
this point.
    Mr. Etheridge. Thank you, Mr. Chairman. I will be brief. 
Thank you for your indulgence. Dr. Whitaker, my first question 
is for you. How varied are food safety standards for fresh cut 
produce? And the reason I ask that question is because I think 
I understood you to say that these vary from state to state. 
And also what are your thoughts on the standards that are being 
put in on imported fresh fruits and vegetables? Does it vary 
from state to state? What are the standards as it relates to 
those coming in this country outside the United States?
    Mr. Whitaker. Yeah, as far as the variability amongst food 
safety standards, most of the food safety programs that have 
been employed around the country are based off the FDA's 1998 
guidance to reduce microbial contamination in fruits and 
vegetables. There is very minor fluctuations away from that, 
but most of the programs that I have seen have been focused on 
that particular set of guidelines.
    Now, since that time, going back 2 or 3 years ago, some of 
those have been enhanced now for leafy greens, lettuces, 
melons, tomatoes. There is also one in production right now for 
green onions and herbs. They are basically an attempt to 
fortify those a little bit with very specific guidance for the 
specific processes that are used to develop those crops.
    And then lastly, the latest iteration, of course, is in 
California with the leafy greens documents, which have really 
attempted to put measurable metrics in place. So when we talk 
it, it is not good enough to say that the water quality should 
be appropriate agricultural use. Now, we actually define what 
that standard should be, and so that we can measure against it 
and verify against that as we produce our crops. And there are 
several other examples of that.
    As far as imports go, it really is dependent upon where in 
the world the products are produced. There are a number of 
different ways of looking at this. Certainly companies such as 
my own that import products from Mexico, we employ the very 
same standards in Mexico that we do in the United States. And 
so the very same high level of standards that we have put 
together on good agricultural practices are exactly what we 
impose upon ourselves as we produce our crops.
    Mr. Etheridge. Does that also mean the same kind of 
pesticides et cetera that you use in Mexico that you use in the 
United States?
    Mr. Whitaker. Yes, sir. Our company employs the same 
practices there. The market for our product is the United 
States, so we want to make sure that the chemicals, any 
treatments we use are absolutely appropriate for the United 
States.
    Mr. Etheridge. Good. Thank you, sir. Ms. DeWaal, let me ask 
you a question as a consumer advocate. To what extent, as far 
as you know, that the CDC and the state departments of 
agriculture are coordinating with USDA and FDA on food safety? 
And if this is occurring, is it occurring at an adequate level 
from a consumer standpoint?
    Ms. DeWaal. Representative Etheridge, we have been very 
concerned that food safety is really spread out too broadly in 
the federal government. The Centers for Disease Control----
    Mr. Etheridge. In your comments, would you also give your 
thoughts as it relates to one agency or one group handling all 
this?
    Ms. DeWaal. Centers for Disease Control actually manages 
the outbreak investigation, which originate really at the state 
level. But they don't even know until they identify the food 
that is causing the illness, they don't know which federal 
agency to call it. Is it USDA if it is the meat? Or is it FDA 
if it is the spinach or the lettuce? We have long taken the 
position that we need to have a unified food safety system, 
which includes all products under the same umbrella, the same 
budget, and the same administrator or agency head. We don't 
have that today.
    We have supported an effort to make this an independent 
agency with a direct line to the president. We think that is 
appropriate. It is how our environmental protection standards 
are handled today, and we believe that food safety deserves the 
same. We have not supported--and recently I issued a release 
saying that we don't believe the Department of Agriculture is 
the right place, which I know some members of this committee 
have supported, to consolidate. And the reason is exactly what 
Mr. Day said earlier from the Agricultural Marketing Service. 
They are not a public health agency, and so it wouldn't be 
correct to put a public health agency into that department. 
Thank you.
    Mr. Etheridge. Thank you, ma'am. Thank you, Mr. Chairman. I 
yield back.
    Mr. Cardoza. Mr. Kuhl.
    Mr. Kuhl. Yes, thank you, Mr. Chairman. Mr. Pezzini, I 
don't want you to feel left out. Nobody is picking on you yet, 
so let me be the first. And actually I will throw you a big 
softball. Tell me why your industry preferred to use the 
California Leafy Greens Agreement rather than pursue Federal 
mandatory or state regulation?
    Mr. Pezzini. Well, we felt in California that we had to 
act. We had to act quickly, deliberately but quickly. And so 
the fastest vehicle for getting food safety on a mandatory 
level was to use the marketing agreement vehicle. And so it was 
really a matter of expedience, and it was the easiest mechanism 
to put this in place.
    Mr. Kuhl. Okay, and you also mentioned obviously that your 
industry is able to respond to research more quickly and 
efficiently, I think, in your testimony. The reasons why the 
industry is in the best position to develop the best management 
practices?
    Mr. Pezzini. Well, I think because largely the industry is 
the one working with these practices. We have the expertise, we 
feel, to collaborate with government in coming up with these 
best practices. And truly the good agricultural practices, the 
new ones that have been accepted into the marketing agreement 
are a collaboration between the private and public sector.
    In fact, the whole marketing agreement ideas are a real 
collaboration. Here we have the industry coming forward with 
standards that have been developed in collaboration with 
government including the FDA and the Department of Health 
Services in California. And bringing those forward to have 
government auditors come out and verify that we are doing these 
on the farm. This is the first program that has government 
auditors out on the farm looking to see that good agricultural 
practices are been employed.
    It is an audit of process, and, I mean, this is where the 
rubber meets the road right here.
    Mr. Kuhl. Okay, great. Appreciate your response. And, Mr. 
Whitaker and Dr. Roberts, I don't want you to feel left out 
either. So I am particularly concerned about your support for 
the mandatory food safety standards, and it appears that your 
producers support that. I am curious as to whether or not your 
farmers would be willing to pay for those inspections.
    Mr. Whitaker. In a sense, Congressman, we are already 
paying for it any time that we have an outbreak like we just 
had where it costs the industry $100 million. I know in my own 
company, it costs us almost $4 million, and we are just a small 
player. So in a way, we are paying a great price right now for 
this uncertainty.
    We are also audited frequently. I know that it may not 
appear that way, but for several years have had independent 
third-party audits on our ranches. It is something we are very 
used to. It is something we are very accustomed to having. It 
is not an unusual occurrence for us, and we recognize too that 
we are only as strong sometimes as our weakest link. So by 
having a federal program where everybody is subjected to the 
same standards, we basically take the competition part of it 
out of it, and you put in place a program where everybody has 
to follow the same standards. I think there is a lot of benefit 
to that for our industry.
    Mr. Kuhl. Well, I can understand the benefit, and I think 
everybody in the room can. The question really comes down to 
can the Federal government--I mean you have heard some of my 
colleagues rail on the fact that there wasn't mandatory and 
complete inspection on every facility and every farm across the 
world. And I think most of us agree that is a tremendous task, 
but the point is here you are asking for mandatory safety 
standards to be put in place. And the question really comes 
down to are your people willing to actually pay a price? Now, I 
know there is a price to be paid in the marketplace for this 
quote/unquote tinge, if you will, of having and growing unsafe 
products. That is a personal one, but this is a program that 
you are seeking, from my understanding of your testimony, that 
would actually require the Federal government to employ people 
to go out and actually do these kinds of things.
    And I am questioning as to whether or not your farmers, 
your producers, would be willing to pay a percentage or a total 
cost of that to actually implement the program.
    Mr. Whitaker. Well, again, we are now. We are already 
paying for third-party audits to come through to our facilities 
and to our farms. Part of the marketing agreement, of course, 
will be also a fee associated with that. So it is something 
that we are living with already. I think most important on that 
it is not so much who pays but to have a standard that we can 
all work to so that we remove a lot of the competing entities 
and basically have a standard that we can work to make sure 
that our products are as safe as they can be.
    Mr. Kuhl. Great. Dr. Roberts, would you like to speak to 
that?
    Ms. Roberts. Yes, I would. Thank you very much for the 
question. I agree with Dr. Whitaker that most of our tomato 
growers in Florida already are paying for individual third-
party audits that are mandated by their buyers. However, they 
have also voluntarily chosen to offer to pay for the regulatory 
inspections that are set up under the new mandatory state 
regulatory program. They have voted to voluntarily adopt these 
good ag practices and BMPs until such time as the food safety 
regulatory program in the state can set up the mandatory 
audits. And then they will pay cost reimbursement for those 
because they feel like even though they already have the third-
party audits, they feel for increased public confidence that it 
is being done properly. It is good to have that governmental 
oversight.
    Mr. Kuhl. So it would be a cost of doing business then so 
to speak.
    Ms. Roberts. Yes, sir.
    Mr. Kuhl. Okay. Mr. Chairman, I am over my time, and I know 
you have some questions.
    Mr. Cardoza. Thank you, Mr. Kuhl. I do have some further 
questions. I would like to start off by asking the entire 
panel, especially from the producers' perspective and the 
processors' perspective. Is it not true that your customers, 
the grocery store chains and others, are requiring higher 
standards of the produce that they sell in their chains? And 
isn't that part of some of this well, that the consumers are 
really demanding a higher level of security? For example, one 
grocery store chain in California that I am familiar with 
promotes that they test the fruits and vegetables that they 
sell in their store.
    Mr. Whitaker. Yeah, you are right. I mean we have a number 
of different customers, all of whom have various food safety 
programs. Luckily, like I said before, most of them are based 
on GAP metrics and things like that. But in general we have had 
a long history of programs in place where we provide audits and 
data from our food safety programs to various retail customers 
as well as food service customers and club store customers. So 
it is something that is quite common right now in the industry.
    I will say since last September, the focus on this has 
heightened even more. There has been more oversight and more 
questions, which is a good thing for our industry.
    Mr. Pezzini. Mr. Chairman, if I might add, Dr. Whitaker is 
right. We are all pushed by our customers. Everyone has a 
different idea of what they want, what their expectations are, 
but I think from a producer's perspective, we want that to be 
science-based. If one company or the metrics say now that you 
have a 20-foot buffer zone for a particular adjacent land use, 
and then we have another customer come along and say well, I 
want 100-foot buffer or I want 500 feet or 1,000 feet or a half 
mile. What is the science behind that? Are they asking 
something that is really not science based and is going to cost 
us all a great deal of money to implement. I mean that is 
really a critical issue for us.
    So what we are hoping for, through the marketing agreement, 
that we will establish a standardized audit and a standardized 
set of best practices that everyone will buy into because they 
will be science based and there will a rational reason for that 
buffer to be a certain distance.
    Mr. Cardoza. That is exactly the reason why I asked the 
question. I will let the others of you respond as well, but 
that is exactly the reason why I asked the question because 
having uniformity--you are only as good as your weakest link. 
And I recall two things. I mean I grew up in an agricultural 
region. I still live there. I used to work on weekends with my 
second father, a wonderful gentleman that owned a 
slaughterhouse. And he was an older man, and I would go and be 
his young boots on the ground, scurrying around helping him on 
weekends.
    And he talked about the fact that USDA inspectors were a 
real pain to him, but it was the cost of doing business. That 
he didn't always like what they told him that he had to do, but 
it was--he would complain the entire afternoon about the USDA 
inspector. At the end of the day, he said but you know what, 
they do the right job, and they do the right thing, and they 
keep this industry healthier than it was before.
    And then he would lament the guy down the street who, under 
certain kinds of regulatory schemes, didn't have to participate 
in the same thing because he was a small guy, and it gave the 
industry a bad name. And what I remember from my childhood, I 
think, is absolutely applicable to today's climate. That the 
vast majority of producers can do everything right, but one 
small producer, for example, cannot get the message and can 
really mess things up for the entire industry. And isn't that 
what you are speaking to in a large degree?
    Mr. Pezzini. Absolutely. We have all been painted with the 
same broad brush, and yes, different producers have had 
different height and sense of food safety. But what we have 
tried to do with the marketing agreement is raise it up to a 
mandatory level. Companies still can go above and beyond that, 
but the question really is what they are doing really enhancing 
food safety or not? And that comes from the buying community as 
well.
    We are hoping in time that we can coalesce this database, 
this information, and really prove the best practices.
    Mr. Cardoza. Very briefly for the rest.
    Ms. Roberts. If I could respond a little bit, we have all 
got responsibilities in food safety, all along the chain, you 
know from a consumer all the way back to the grower. And the 
food retail stores and the food processors have 
responsibilities in the way they handle that food, just as the 
grower and the person transporting and the person packing it. 
So every single individual area has to have some science-based 
practices that they are required to follow to ensure that the 
food is safe all the way through.
    And that is exactly what we need, and we are so pleased 
that we hear you talking about the need for increased research 
because we have identified some very key areas in tomato food 
safety that, quite frankly, there are no scientific answers on 
which to base the practices that we want to follow. And I think 
everyone on the panel would agree. At the moment, we are basing 
metrics on the best science available, but oftentimes we are 
basing it on the science of water or other scientific areas in 
the absence of some truly valid science to give us a sound 
foundation.
    So every one of these areas has food safety practices that 
they should be required to follow.
    Mr. Cardoza. Thank you for that. I think you are absolutely 
right, and I will have to tell the panel and the members of the 
committee as well that I was thoroughly disappointed today in 
FDA's response to those questions of research and an action 
plan. We need significantly more research in this area.
    To admit to the committee today that they don't know what 
caused the problem, and I understand some things are not just 
so knowable. But we have to figure out how pathogens come up 
the food chain. That is something that we have to understand, 
and that is something that the Federal government is truly 
responsible for doing for everyone in the country. It is not 
appropriate for just California Department of Food and 
Agriculture to do research when it is also going to benefit 
Florida. That is when the Federal government has traditionally 
stepped up its research roles, and the fact that we don't have, 
in my mind, an adequate plan for how we are going to advance in 
the future speaks volumes on this problem.
    Now, I want to get back to Ms. Christie and allow her to 
speak, and then I will turn it over.
    Ms. Christie. Thank you. You know, the word science based 
really is the key factor here. It is also one of the reasons 
why PMA is so pleased to be able to create the center for 
produce safety at UC Davis. It is to actually accelerate the 
very much needed research and make sure that our industry 
members are actually all seeing the same research so we can 
utilize the best science available to help improve our 
practices.
    Mr. Cardoza. Thank you. Ms. DeWaal.
    Ms. DeWaal. Thank you, Mr. Chairman. I want to make two 
quick points. One is your grandfather was right. Cheap food 
sells. So the problem with relying on the retail sector to 
police this program is that there will always be somebody 
selling the food that they didn't buy. So it is critical to get 
a level playing field both domestically across the board and 
for imports that FDA step in and fill in these roles.
    The second thing I do want to bring to your attention 
though is that we have over 600 produce outbreaks in our 
database. So we have a very comprehensive look at the problem. 
Forty percent of the outbreaks are neuro-virus, which are 
human-transmitted problems. Another 25 percent are salmonella 
or E.coli. So as you look across the board, I mean whether they 
know how that specific E.coli got onto that specific spinach is 
less important to my mind than putting in place the standards 
for manure, for water, for farm worker sanitation that will 
address across the board the problems that we are seeing.
    Mr. Cardoza. Well, I have to follow up on a couple points 
with regard to your answer just now. I think it is important to 
do both. I think it is important to have the standards, and I 
think it is important to understand what caused the problem 
because how do you develop the standards if you don't know what 
caused the problem? And so there is a significant amount of 
research. It is not either/or, and that is the problem frankly 
I had with the FDA's response is that it is not either/or. It 
is a comprehensive look at what is causing the problem and how 
do we build confidence in the system back to where it should 
be.
    Frankly, we have probably always had these challenges, but 
now we are learning more, and the media allows us to 
communicate these outbreaks much more effectively. And groups 
like yourselves are doing very responsible work, are compiling 
the data for us, and so we are learning more.
    So once we know, don't we have the responsibility at that 
point to then do a better job with our practices? And I think 
the answer to all this, we will agree, is yes. So the problem 
is not so much in my mind finding fault for what has happened 
in the past, but I do find significant fault in how we don't 
seem to have a plan for how to get to the better place with the 
exception of the California group that has self-imposed their 
own marketing system. And even they admit that I don't think 
that they feel that is the definitive answer to this question, 
but that it needs more research and more discussion and more 
thoughtful communication that will bring us all together 
ultimately.
    I am going to let Mr. Kuhl ask a couple more questions, and 
then I am going to come back to you, Ms. DeWaal, because I want 
to talk about what department this really needs to go in and 
how we achieve that goal.
    Mr. Kuhl. Thank you, Mr. Chairman, for the additional time. 
It is a question for the panel because it seems as though we 
have reached the point that everybody agrees that there is need 
for additional research and it would appear to me, and I think 
the chairman probably has a better handle on this, that 
Congress will be providing, in this next farm bill, some 
additional research.
    The question I am concerned about is, knowing that there is 
going to be some additional funding for research dealing with 
issues like this, how can we best coordinate that kind of 
additional supplement coming from the Federal government with 
what the industry has already done? And you probably all have a 
little bit different perspective, and that is why I am asking 
the question to you as a panel. Dr. Whitaker, do you want to 
start first?
    Mr. Whitaker. One of the big things that we could do right 
straight off is just address some very basic questions with 
research about how these bugs get into our environment? Once 
they are on the food, how do they live there? How do we get 
them off? And how long do they persist in the environment?
    Certainly additional research funding, whether that be 
through the CSREES type of grant proposals that come through to 
academia or whether they are done institutionally by the USDA 
or the FDA, can help us address those specific issues. We need 
to make sure that the research that we do is practical, that 
can reach back out onto the farm so that we can come up with 
procedures or methodologies that we can put in place to 
mitigate against those occurrences happening on our food 
products.
    I think the apparatus exists through the traditional 
granting agencies. I think the focus is what is necessary. It 
seems that we haven't really focused any research monies on 
food safety in the past, or at least to a large extent. And so 
if we can do that, I think there is plenty of very capable 
people out in academia and within the USDA, FDA and various 
agencies to conduct this type of research in collaboration with 
the industry.
    And I think that is really important. I think the industry 
needs to help play a role in setting some of these research 
priorities and helping the various researchers understand what 
that data means on a real-time, real-life farm experience.
    Mr. Kuhl. Mr. Pezzini.
    Mr. Pezzini. I would add that certainly a very good vehicle 
would be this Western Institute for Food Safety, the newly 
created Center for Produce Safety. That is a collaboration 
between academia, government, and the industry, and you have 
the three legs of that stool put together there. And that would 
be one great vehicle for initiating research, practical 
research, and Dr. Whitaker is absolutely right about that. It 
has to be something that can be implemented on the farm. It has 
to be good, practical research that has a lasting effect on 
food safety.
    Mr. Kuhl. Dr. Roberts.
    Ms. Roberts. I fully agree that it has to be cooperative 
and collaborative. That is why, in cooperation with GIP SAM, we 
try to pull together all the researchers across the country 
from California to Florida to New York to North Carolina to try 
to at least look at the one commodity, tomatoes, first of all, 
identifying what research had already been done, trying to have 
these researchers cooperate with each other so that with the 
minimal resources we have we didn't duplicate studies that were 
out there, and then to try to identify all the data gaps from 
both the industry's perspective as well as the regulators as 
well as at the divisions themselves.
    It has to be collaborative. It has to be cooperative. Not 
only common sense, but it has to be economically feasible for 
someone to immediately adopt it and to enhance food safety.
    Mr. Kuhl. Ms. Christie.
    Ms. Christie. I am not sure I could add anything as far as 
the need for the research and the type of research that the 
industry needs at this time. I can tell you that the goal of 
the center for produce safety, and one of the major goals, is 
to create a clearinghouse of existing research to prevent the 
duplication that my co-panelists have talked about.
    We are actually meeting next month with industry leaders, 
academics, as well as members of the government. We actually 
have an ongoing survey right now to address these very issues 
that we are talking about and provide a global resource for 
anyone in the produce industry so they know what is actually 
ongoing, what has already been done. One of our members has 
already donated $1 million of privately funded research that is 
ongoing to the CPS. That is unprecedented, and it gives you an 
example of the collaboration that is going on right now.
    Mr. Kuhl. Okay, Ms. DeWaal.
    Ms. DeWaal. Thank you. We have talked already about how a 
problem may originate on the farm, but you can make it worse or 
you can actually add problems to otherwise safe produce. So I 
think some of the key research that would help us in our advice 
to consumers is on the impact of washing. We know it won't 
eliminate the hazard, but what kind of reductions can consumers 
expect by washing in the kitchen?
    The other question I have been asking is whether checking 
the first wash water in a triple wash operation could actually 
provide a critical control point. If you are checking that 
first wash water and eliminating contaminated product before it 
gets mixed in with other products from other farms, could that 
actually provide a significant new hurdle?
    And finally the impacts of refrigeration. We had to make 
some adjustments to our advice. We give advice to our 900,000 
consumer members, and a lot of that gets picked up by the 
media. And we changed advice by telling consumers that 
refrigerating this fresh-cut produce is very, very important, 
but let us check the impact of that kind of advice.
    So I can see advice going, not only to the farm level, but 
also to the retail and to the consumer level.
    Mr. Kuhl. Okay, thank you. I yield back, Mr. Chairman.
    Mr. Cardoza. Thank you. I want to conclude this panel with 
this final series of questions, and I want to start with Ms. 
DeWaal in this. And I have suggested the USDA is the right 
agency. You suggested that you don't think so, and I am going 
to assume that the reason why you don't think so is because 
there is a marketing branch and a promotion branch to USDA as 
well as the food safety.
    But I am going to disagree with your premise for a little 
bit, and I want to challenge you. And then I want your feedback 
on it because as I talked about my experience growing up in the 
slaughterhouse, meat, poultry, and eggs are in fact regulated 
by USDA. And from my anecdotal response to you, you know that 
my second father wasn't at all happy with having to go through 
the regulatory scrutiny and felt they were oftentimes too tough 
on plants like his in exactly that situation.
    Nobody likes to be the guy under the thumb of the 
regulator, but there is also the acknowledgement that 
regulation is necessary in cases like this. I would also submit 
to you that the USDA stamp of approval is the gold standard in 
organics and in meat. When you see that blue or purple label on 
meat, people feel much better about the fact that USDA is 
looking at it. And I am going to give you another reason why I 
believe USDA is the right. I believe, a I believe that you said 
or someone else, maybe it was the gentleman from FDA himself, 
said that American public believes that the farmers are the 
good guys in this process, that they want to do the right thing 
and they want to comply.
    And the problem, as I see it, is FDA is divorced from the 
farmer. And USDA actually has the components through the 
extension services and others that are routinely working on a 
day-to-day basis with farmers. So if USDA got information that 
a new practice was the best practice, they could easily 
disseminate that information where FDA doesn't even have a 
mechanism to do that unless they go through another agency to 
do it.
    And so I would submit to you that if you separate the 
enforcement branch from the promotion branch, that they in fact 
can and will do a good job at USDA. Secondly, I would submit to 
you that, as the growers here and the packers and shippers have 
all mentioned, that they have an inherent self interest in 
making sure consumer confidence is up. And so when we are all 
trying to do the right thing, the question is how do we get to 
the right thing, and how do we ensure consumer confidence. And 
based on that premise that I have set up, I would like you all 
to comment, starting with Ms. DeWaal.
    Ms. DeWaal. Thank you, and I appreciate your thoughtful 
question because it is a great one. The bottom line though, the 
difference that your grandfather was observing compared to what 
FDA is that they are operating under two different statutory 
structures, both of which are 100 years old, 101 this year.
    The Meat Inspection Act sets up a system whereby USDA looks 
at every single chicken carcass, beef carcass, and then they 
look at it additional times as that carcass is processed into 
the meat that we all consume. This is probably one of the most 
regulated industries in the world. It is a very intensive 
oversight system where the plant simply can't operate, they 
can't open their doors if it is a slaughter plant, until those 
USDA inspectors are online. And, yes, they do get that seal of 
approval.
    The FDA-regulated products, again, based on a law passed in 
1906, are much more passively regulated. They regulate products 
if they are adulterated or mislabeled. It is kind of after the 
fact, and that is why we have ended up with an agency who looks 
a lot like a fire department. They are running in to address 
the problems with spinach or the Taco John and Taco Bell 
outbreaks or the peanut butter problems, and now it is pet food 
and animal feed.
    But they look very much like a fire department because they 
simply don't have the inspectors. USDA literally has almost 10 
times more inspectors than FDA does to regulate food 
commodities, much fewer in terms of the number of food 
commodities.
    My real issue, when it comes to USDA versus HHS versus an 
independent agency, is looking at what role will the secretary 
really play when it comes to food safety. And unfortunately, I 
have observed in this administration and others that the 
secretary of agriculture sees his or her principle mission as 
promoting agriculture products.
    You know this current secretary has spent far more time in 
Japan trying to get the Japanese to buy U.S. beef following BSE 
than he has on food safety issues in his tenure. And that tends 
to happen to most of the secretaries. So we have supported 
legislation sponsored by Congresswoman DeLauro and Senator 
Durbin. It is called the Safe Food Act. It does create a 
single, unified agency separate from both HHS and USDA. Thank 
you.
    Mr. Cardoza. Thank you.
    Ms. Christie. Well, this issue is still very much under 
discussion with the PMA. We believe in an appropriately funded 
FDA can do the job it needs to do to help protect the food 
supply.
    Ms. Roberts. I would say that the public nor the growers 
care which letters identify the agency. They just want to have 
a universal collaboratively decided position that promotes food 
safety. We are following the issue very closely with our 
industry. We believe that there should be a unified food policy 
for this country that involves food safety as one of its 
tenants. And we will just look to the wisdom of Congress and 
all of the agencies to see how this is dealt with.
    We work cooperatively with FDA, USDA, but there are so many 
other agencies that have a component of food safety. EPA is 
such a critical one with all of the chemical agents that we 
have to use. So it is not just those two agencies. So we 
strongly support a unified sound food safety policy for this 
country, and we look to the wisdom of Congress to sort this 
out.
    Mr. Cardoza. Mr. Pezzini.
    Mr. Pezzini. We have collaborated with all those agencies 
in establishing or creating the new good agricultural 
practices. I will say that we are using, and I mentioned this 
in my testimony, USDA-trained inspectors to do the auditing. 
They have the expertise on the farm. So from that perspective, 
the USDA is much more familiar with agriculture in its setting.
    Mr. Whitaker. I would say I agree with a lot of what has 
already been said. My principle interaction, since I have been 
in the produce industry, has been with the FDA. And 1 of the 
things that I think that stands well for them is they do take a 
science-based approach to problem solving, and they have 
certainly shown a great deal of focus on food safety, as in 
recent years with a number of guidelines that have been issued 
that I went through today. But also onsite visits into Salinas 
on fact-finding tours to help develop the best food safety 
programs possible, but also to help educate themselves as to 
the problems that we see on the farm level.
    So again I think certainly what Mr. Pezzini said stands. We 
currently work with USDA inspectors because of their on-farm 
expertise. But a properly or appropriately funded FDA could 
also bring something to bear on this issue.
    Mr. Cardoza. Thank you. Well, it is clear that there is 
still a lot of work to be done to further ensure American 
consumers have access to the safest food supply possible. We 
have the safest food supply available at this time, but all 
know that we can do better. However, in our zest for action, we 
must be careful not to create a regulatory environment that 
stifles the industry while failing to meet the goals of 
increased safety. I want to caution this because at 1 point 
during the height of the spinach outbreak, I was informed that 
some grocers were considering requiring 8-foot fences around 
their suppliers' lettuce farms. Not only was this a hasty idea 
that was ill conceived, but it would have offered little 
protection for further outbreaks and could have been extremely 
costly to farmers and to consumers.
    Food safety outbreaks are not the place of knee-jerk 
reactions even though that may be what some would like to see 
happen. Instead, I firmly believe that there is room for 
partnership and cooperation here in responding to food safety 
concerns. My colleagues in Congress, both in the House and the 
Senate and on both sides of the aisles, should learn from 
California's leafy green industry, in my opinion, and Florida's 
tomato industry on how to integrate science, research, 
institutional knowledge into a comprehensive industry-wide 
response.
    But we must also carefully examine the strengths and 
weaknesses of our current food safety structure, especially the 
utility of several regulatory agencies, as opposed to 1 central 
location, as Ms. DeWaal has testified.
    I look forward to continuing to dialogue on preventing 
foodborne illness, and I again thank the witnesses for their 
thoughtful comments and their helpful insight in this matter. 
You truly have helped us in our goal and effort to craft a more 
effective policy for the country.
    With that, under the rules of the committee, the record of 
today's hearing will remain open for 10 days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by a member of the panel.
    This hearing of the subcommittee on horticulture and 
organic agriculture is thereby adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0684.001
    
    [GRAPHIC] [TIFF OMITTED] T0684.002
    
    [GRAPHIC] [TIFF OMITTED] T0684.003
    
    [GRAPHIC] [TIFF OMITTED] T0684.004
    
    [GRAPHIC] [TIFF OMITTED] T0684.005
    
    [GRAPHIC] [TIFF OMITTED] T0684.006
    
    [GRAPHIC] [TIFF OMITTED] T0684.007
    
    [GRAPHIC] [TIFF OMITTED] T0684.008
    
    [GRAPHIC] [TIFF OMITTED] T0684.009
    
    [GRAPHIC] [TIFF OMITTED] T0684.010
    
    [GRAPHIC] [TIFF OMITTED] T0684.011
    
    [GRAPHIC] [TIFF OMITTED] T0684.012
    
    [GRAPHIC] [TIFF OMITTED] T0684.013
    
    [GRAPHIC] [TIFF OMITTED] T0684.014
    
    [GRAPHIC] [TIFF OMITTED] T0684.015
    
    [GRAPHIC] [TIFF OMITTED] T0684.016
    
    [GRAPHIC] [TIFF OMITTED] T0684.017
    
    [GRAPHIC] [TIFF OMITTED] T0684.018
    
    [GRAPHIC] [TIFF OMITTED] T0684.019
    
    [GRAPHIC] [TIFF OMITTED] T0684.020
    
    [GRAPHIC] [TIFF OMITTED] T0684.021
    
    [GRAPHIC] [TIFF OMITTED] T0684.022
    
    [GRAPHIC] [TIFF OMITTED] T0684.023
    
    [GRAPHIC] [TIFF OMITTED] T0684.024
    
    [GRAPHIC] [TIFF OMITTED] T0684.025
    
    [GRAPHIC] [TIFF OMITTED] T0684.026
    
    [GRAPHIC] [TIFF OMITTED] T0684.027
    
    [GRAPHIC] [TIFF OMITTED] T0684.028
    
    [GRAPHIC] [TIFF OMITTED] T0684.029
    
    [GRAPHIC] [TIFF OMITTED] T0684.030
    
    [GRAPHIC] [TIFF OMITTED] T0684.031
    
    [GRAPHIC] [TIFF OMITTED] T0684.032
    
    [GRAPHIC] [TIFF OMITTED] T0684.033
    
    [GRAPHIC] [TIFF OMITTED] T0684.034
    
    [GRAPHIC] [TIFF OMITTED] T0684.035
    
    [GRAPHIC] [TIFF OMITTED] T0684.036
    
    [GRAPHIC] [TIFF OMITTED] T0684.037
    
    [GRAPHIC] [TIFF OMITTED] T0684.038
    
    [GRAPHIC] [TIFF OMITTED] T0684.039
    
    [GRAPHIC] [TIFF OMITTED] T0684.040
    
    [GRAPHIC] [TIFF OMITTED] T0684.041
    
    [GRAPHIC] [TIFF OMITTED] T0684.042
    
    [GRAPHIC] [TIFF OMITTED] T0684.043
    
    [GRAPHIC] [TIFF OMITTED] T0684.044
    
    [GRAPHIC] [TIFF OMITTED] T0684.045
    
    [GRAPHIC] [TIFF OMITTED] T0684.046
    
    [GRAPHIC] [TIFF OMITTED] T0684.047
    
    [GRAPHIC] [TIFF OMITTED] T0684.048
    
    [GRAPHIC] [TIFF OMITTED] T0684.049
    
    [GRAPHIC] [TIFF OMITTED] T0684.050
    
    [GRAPHIC] [TIFF OMITTED] T0684.051
    
    [GRAPHIC] [TIFF OMITTED] T0684.052
    
    [GRAPHIC] [TIFF OMITTED] T0684.053
    
    [GRAPHIC] [TIFF OMITTED] T0684.054
    
    [GRAPHIC] [TIFF OMITTED] T0684.055
    
    [GRAPHIC] [TIFF OMITTED] T0684.056
    
    [GRAPHIC] [TIFF OMITTED] T0684.057
    
    [GRAPHIC] [TIFF OMITTED] T0684.058
    
    [GRAPHIC] [TIFF OMITTED] T0684.059
    
    [GRAPHIC] [TIFF OMITTED] T0684.060
    
    [GRAPHIC] [TIFF OMITTED] T0684.061
    
    [GRAPHIC] [TIFF OMITTED] T0684.062
    
    [GRAPHIC] [TIFF OMITTED] T0684.063
    
    [GRAPHIC] [TIFF OMITTED] T0684.064
    
                                 <all>

</pre></body></html>
